<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2012 BUDGET FOR TRIBAL PROGRAMS</title>
<body><pre>[Senate Hearing 112-31]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-31
 
      THE PRESIDENT'S FISCAL YEAR 2012 BUDGET FOR TRIBAL PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
67-655                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2011...................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................     3
Statement of Senator Murkowski...................................    24
Statement of Senator Tester......................................     3
Statement of Senator Udall.......................................    29

                               Witnesses

Allen, Hon. W. Ron, Treasurer, National Congress of American 
  Indians; Chairman, Jamestown S'Klallam Tribe...................    32
    Prepared statement...........................................    34
Barbry, Sr., Hon. Earl J., Chairman, Tunica-Biloxi Tribe of 
  Louisiana; Chairman, United South and Eastern Tribes, Inc. 
  Carcieri Task Force............................................    81
    Prepared statement...........................................    83
Blackhawk, Hon. John, Chairman, Winnebago Tribe of Nebraska......   112
    Prepared statement...........................................   113
Dasheno, Hon. Walter, Governor, Pueblo of Santa Clara............   115
    Prepared statement...........................................   118
Echo Hawk, Hon. Larry, Assistant Secretary for Indian Affairs, 
  U.S. Department of the Interior................................     5
    Prepared statement...........................................     7
Finley, Hon. Michael O., Chairman, Confederated Tribes of the 
  Colville Reservation...........................................   107
    Prepared statement...........................................   110
Oatman-Wak Wak, Mary Jane, President, National Indian Education 
  Association....................................................    41
    Prepared statement with attachments..........................    45
Roubideaux, Hon. Yvette, M.D., M.P.H., Director, Indian Health 
  Service, U.S. Department of Health and Human Services; 
  accompanied by Randy Grinnell, Deputy Director.................    11
    Prepared statement...........................................    13
Steele, Jr., Hon. James, First Vice-President, Affiliated Tribes 
  of Northwest Indians; Council Member, Confederated Salish and 
  Kootenai Tribes................................................    93
    Prepared statement...........................................    95

                                Appendix

Alaska Federation of Natives, prepared statement.................   138
Barnett, D'Shane, Executive Director, National Council of Urban 
  Indian Health, prepared statement..............................   133
Causley, Hon. Cheryl A., Chairwoman, National American Indian 
  Housing Council, prepared statement............................   130
Gschwind, Russell, Director, National Ironworkers Training 
  Program for American Indians, prepared statement...............   137
Murphy, Hon. Charles W., Chairman, Standing Rock Sioux Tribe, 
  prepared statement.............................................   127


      THE PRESIDENT'S FISCAL YEAR 2012 BUDGET FOR TRIBAL PROGRAMS

                              ----------                              


                        TUESDAY, MARCH 15, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 o'clock a.m. 
in room 628, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Aloha maika'i ko'u. And welcome to the 
Committee on Indian Affairs.
    As Chairman, it is my great pleasure to welcome you to this 
special place in the Senate. And I want to tell you, I am 
delighted to have a partner here with me on this Committee. And 
Senator Barrasso, of course, has served real well the years 
that he has been here in the Senate.
    Mahalo or thank you to all of our witnesses for being here 
to share your views on the President's budget priorities for 
tribal programs. I want to extend a special mahalo to those who 
have traveled so far to be here with us today.
    We have limited time to receive oral testimony, but the 
record on this hearing will continue to be open for two weeks, 
and I want to encourage tribes, Native organizations and other 
interested parties to share your views with us in the form of 
written testimony.
    Before we begin, I want to share the Hawaiian concept of 
aloha with you to help you understand how I, as Chairman, 
intend to lead on this Committee. Aloha is a word that in 
Hawaiian is love. And each of you, I know, knows that word so 
well. And aloha is more than just a greeting or a farewell. 
When we say it to each other and when we work together, it 
means we do so in the spirit of caring for each other, and out 
of a mutual respect for one another.
    It is my goal to conduct the business of this Committee in 
the spirit of aloha, to encourage stakeholders to participate 
in the process, to listen to varying viewpoints, and to work 
together to address important issues.
    The Federal policy of supporting self-determination and 
self-governance is vital for honoring our Nation's unique 
relationship with America's first people. Tribal programs are 
tasked with delivering on promises made, promises made 
implementing the Federal responsibility to be a good trustee 
and more importantly, partner for tribal nations as they 
exercise self-determination and enhance the self-sufficiency of 
their communities.
    While I am concerned with several areas where funding 
requests do not adequately address the known needs, I am happy 
to see that the President's budget reflects the longstanding 
priority of tribes to strengthen self-governance in practical 
and meaningful ways.
    I would like to take a moment to introduce you to the 
newest additions to my hard-working team at the Committee. My 
Staff Director and Chief Counsel is Loretta Tuell. Serving as 
General Counsel is Lenna Aoki and Jade Danner is our new Policy 
Director.
    Also new to the team are Josh Pitre and Christiane Cardoza.
    Vice Chair Barrasso has served his State well and also our 
Country, and I am delighted to be working with him. And at this 
time, I ask him for any opening remarks he has.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I want to thank you, Mr. Chairman, and I 
look forward to working with you. We have had a number of very 
successful and productive meetings and discussions, and I look 
forward to continuing to work with you as we have through the 
history of this Committee in a bipartisan way, looking for the 
best results.
    So thank you, Mr. Chairman. I want to thank you for holding 
this important hearing today. This Congress, our work begins by 
examining the President's budget and the requests regarding 
Indian programs. All of us on this Committee recognize that the 
Federal Government has important responsibilities in Indian 
Country. And Mr. Chairman, I think you started by mentioning 
the responsibilities and obligations, and I concur with you.
    The United States provides law enforcement, land 
management, health care, education services on Indian 
reservations and communities across the Country. And we all 
know that the government cannot carry out these 
responsibilities without adequate finances.
    We are all aware that the deficit is spiraling out of 
control and all Federal agencies are going to be called upon to 
address this problem. What that means is more than ever, 
Federal agencies need to prioritize the use of resources and 
must use the resources effectively, as well as efficiently.
    So I am looking forward to hearing from our Federal and 
tribal witnesses today about how best to do that, how to 
establish the priorities and use Federal resources with greater 
efficiency, greater effectiveness.
    I also want to hear, Mr. Chairman, how the Department of 
Interior intends to roll out the Indian Land Consolidation 
Program under the Claims Resolution Act of 2010. The court has 
not yet approved that settlement. That has to happen before the 
money gets spent. I understand that, but $1.9 billion is a lot 
of money and how it gets spent is critical to the success of 
that program. So I hope to hear something at least in general 
terms about how the Department thinks it may carry out that 
program.
    Finally, Mr. Chairman, along with you, I want to welcome 
our witnesses, some of whom you and I know have traveled long 
distances to be here and to share their best thoughts today in 
testimony. So I look forward to their testimony and I want to 
thank you again, Mr. Chairman.
    The Chairman. Thank you very much, Senator Barrasso.
    Would any of my colleagues like to comment?
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman.
    In a very tight budget year, we see that the President's 
budget proposes constant funding or relatively small cuts to 
Indian programs across agencies. In many important areas like 
contract health services, tribal law enforcement, and Indian 
energy development, this budget proposes increases that are 
sorely needed by Minnesota tribes and across Indian Country.
    So that is good. But while these increases are welcome, 
they don't come close to meeting the dire needs in Indian 
Country. Once again, the cuts in this budget come at the 
expense of critical programs like the construction budget for 
schools and detention facilities. The truth is that Indian 
programs just aren't a high priority for the Federal 
Government. We see that in this budget.
    On schools and detention facilities this year, it is my 
understanding that no new schools will be built with the 
requested funds for education construction. That is a shame for 
the students at the Bug-O-Nay-Ge-Shig School at the Leech Lake 
Reservation in Minnesota. That school is literally falling 
apart with exposed wires, mold, and ceilings that are caving 
in. None of us, none of us would feel comfortable sending our 
own children to these schools. And it is shameful that we ask 
parents in Indian communities to do so.
    I am also concerned about the administration of various 
programs at the BIA and the Indian Health Service. We need to 
see more money for programs like contract health services and 
Indian energy financing, but only if the agencies responsible 
for these programs are administering them in a timely and 
transparent manner. I am concerned that this isn't always the 
case and I am looking forward to discussing these issues more 
in depth today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Chairman Akaka, thank you very much for 
holding this hearing. I, too, look forward to working with you 
on this very important Committee as we move forward. And I want 
to welcome all our distinguished guests. It is good to see you 
all again.
    A special welcome to James Steele, from the Confederated 
Salish and Kootenai Tribe in northwestern Montana. I can't 
guarantee that I will be here when you testify, James, on the 
second panel, but I certainly appreciate you being here to lend 
your perspective. You have been a dynamic leader on the 
Flathead Reservation at the Montana-Wyoming Tribal Leaders 
Council, and now with Affiliated Tribes of the Northwest 
Indians.
    No matter what the job title, you have shown how important 
it is to build strong partnerships. I have known James since I 
was in the State Senate and a good example of partnerships is 
the National Bison Range. The range is located completely 
within the boundaries of the Flathead Reservation and it only 
makes sense that the tribe would have a hand in managing that 
natural resource because they have been doing it forever.
    Although they were once enemies, James and I worked with 
the Fish and Wildlife Service and other locals to figure out a 
way for everybody to work together. Today, the tribe and the 
government support an annual funding agreement to manage the 
National Bison Range.
    So I want to thank you for your good work, James, and I 
look forward to hearing your thoughts today. And I will 
apologize ahead of time if I have to duck out, but hopefully we 
will catch up either here in D.C. or in Montana or maybe on the 
plane ride between the two.
    Mr. Chairman, this is undoubtedly the most important 
hearing of Indian Country this year. The Federal budget impacts 
no other group of citizens more than Native Americans. And 
although I continue working to make sure that the tribes don't 
have to rely on the government, we still have important 
responsibilities.
    Congress was very productive in Indian affairs last year. 
As we all know, passing laws is only the first step. 
Implementing them requires solid leadership, a workable budget, 
and sound oversight. I look forward to hearing from different 
panel members today on how you plan to implement the Indian 
Health Care Improvement Act, Tribal Law and Order Act, legal 
settlements including Cobell and others.
    But in addition to improving health care, housing and 
education and public safety, I am also working to create jobs 
and increase economic opportunities in Indian Country, as I 
know is a high priority on your guys' list. And I look forward 
to hearing your ideas on how we get that accomplished. It is a 
huge challenge.
    Some of the most exciting opportunities we have out there 
involve energy. Indian Country contains vast potential of both 
renewable and traditional forms of energy development. I look 
forward to working with tribal leaders, the Administration, my 
colleagues on this Committee and in the Senate as a whole to 
craft this year's Indian Energy Parity Act and other job-
related bills.
    While we work to make tribes self-sufficient through self-
determination, the United States still has trust 
responsibilities. I look forward to hearing from the members of 
President Obama's Administration on how they prioritize their 
budget to carry out those important duties.
    Mr. Chairman, we live in interesting times, and I look 
forward to hearing from all our witnesses today on what they 
think our priorities should be as we put together next year's 
budget. From agency folks, I would like to hear how you plan to 
do your work with a little bit less money than in the past. 
From advocacy groups and tribal representatives, I want to hear 
about what you are doing to become strong, independent nations 
that have to rely less on the Federal Government.
    From everybody, I would like to hear your ideas on how 
government can become more effective. Make no mistake about it, 
we need to eliminate waste, fraud and abuse so we can invest in 
the activities that create jobs and improve our families.
    As we all know, the Federal Government is at best a safety 
net in Indian Country. Many argue that it is not even very good 
at that. I want to try to have more than just a safety net.
    I look forward to the hearing today and your suggestions on 
how we can empower progress in Indian Country. I look forward 
to being a partner in that process as we move forward.
    So Mr. Chairman, congratulations on the Chairmanship and I 
look forward to working with you, as always.
    Thank you.
    The Chairman. Thank you very much, Senator Tester.
    I would like to welcome our first panel to the witness 
table. Joining us from the Department of Interior, we have the 
Honorable Larry Echo Hawk, Assistant Secretary for Indian 
Affairs. And he is accompanied by Michael Black, Director of 
the Bureau of Indian Affairs, and Keith Moore, Director of 
Bureau of Indian Education.
    Also testifying from the Department of Health and Human 
Services, we have the Honorable Yvette Roubideaux, Director of 
the Indian Health Service, accompanied by Deputy Director Randy 
Grinnell.
    Welcome Assistant Secretary Echo Hawk and Director 
Roubideaux to this hearing.
    And at this time, I would like to ask you to deliver your 
testimony. So we will begin with Larry Echo Hawk with your 
testimony.

         STATEMENT OF HON. LARRY ECHO HAWK, ASSISTANT 
SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR; 
               ACCOMPANIED BY: MICHAEL S. BLACK, 
       DIRECTOR, BUREAU OF INDIAN AFFAIRS; KEITH MOORE, 
       DIRECTOR, BUREAU OF INDIAN EDUCATION; AND RAY A. 
         JOSEPH, PRINCIPAL DEPUTY SPECIAL TRUSTEE FOR 
                        AMERICAN INDIANS

    Mr. Echo Hawk. Chairman Akaka and Vice Chairman Barrasso 
and Committee Members, thank you for this opportunity to 
provide the Department of the Interior's statement on the 
President's 2012 budget request for Indian Affairs.
    The President has requested $2.5 billion for Indian Affairs 
within the Department of the Interior. And through the work of 
the Tribal-Interior Budget Council, this budget has been 
crafted after careful consideration with American Indian and 
Alaska Native government representatives.
    The President has called upon members of his Administration 
to meet important objectives, while also exercising fiscal 
responsibility. And consistent with that directive, difficult 
choices have been made in formulating the 2012 budget request 
for Indian Affairs.
    The budget request is $18.9 billion or 4.5 percent below 
the fiscal year 2010 enacted budget level. I point out that the 
majority of these reductions, however, are due to one-time 
program increases provided in prior appropriations, completion 
of projects, and completion of payments to settlements.
    Still, Indian Affairs had to make tough decisions that 
reflect the President's commitment to fiscal responsibility. We 
have made strategic cuts at the central office of Indian 
Affairs in order to fund tribal priorities. Thus, the proposed 
budget has $89.6 million in targeted increases to tribal 
programs. I would like to highlight some of those targeted 
increases which are part of the President's Strengthening 
Tribal Nations Initiative.
    Under the first category of advancing nation-to-nation 
relationships, there is a $42.3 million increase which includes 
$25.5 million for contract support costs. And I point this out 
to note that this was the top priority identified by the 
Tribal-Interior Budget Council.
    Along with that is another $4 million request to increase 
the Indian Self-Determination Fund, which is funding to assist 
tribes who want to contract or compact new programs. There is 
also included within this initiative support for small and 
needy tribes in the amount of a $3 million increase. This helps 
those small tribes meet the very basic responsibilities of 
tribal government. This will affect 114 tribes, 86 of which are 
in the State of Alaska.
    Under the second category of protecting Indian communities, 
there is an increase of $20 million, which includes $5.1 
million for law enforcement operations and a total of $11.4 
million for detention center operations and maintenance. There 
is also an increase of $2.5 million for tribal courts.
    Under a third category of improving trust land management, 
there is an increase of $18.4 million, which includes $2 
million for grants directly to tribes for projects to evaluate 
and develop renewable energy resources on tribal trust lands. 
There is also an increase of $7.7 million for trust natural 
resource management.
    And the fourth category to highlight is improving Indian 
education. And here we have a request to increase expenditures 
of $8.9 million. And one of the things that are included in 
this request would be an initiative to advance safe and secure 
schools. That is in the amount of $3.9 million, which will 
implement safety and security programs at 10 schools and two 
dormitories to mitigate issues identified by the Inspector 
General last year.
    And there is also $3 million requested as an increase for 
the tribal grant support costs, and this funds administration 
and indirect costs at about 126 tribally controlled schools and 
residential facilities.
    There are decreases, including in the operation of Indian 
programs, a decrease of $43.3 million in construction; a 
decrease of $65 million; and there is $7.9 million in program 
eliminations, and there is $64.4 million in program 
completions. And also another reduction is in administration of 
$22.1 million.
    This budget will serve more than 1.7 million American 
Indian and Alaska Natives. And I emphasize that almost 90 
percent of all appropriations are expended at the local level. 
And 63 percent of these appropriations are provided directly to 
tribes.
    What is good about the increases that are proposed in this 
budget is a 5 percent increase in the tribal priority 
allocation, and there is also an increase for fixed costs that 
will affect tribal governments of $8.2 million.
    So I recognize that there are certainly great needs in 
Indian Country and this budget will not meet all of the needs 
that we have. But President Obama's Administration has been 
faithful in seeking to meet those needs by following the 
priorities of tribal leaders.
    We would be happy to respond to questions from the 
Committee. Thank you.
    [The prepared statement of Mr. Echo Hawk follows:]

  Prepared Statement of Hon. Larry Echo Hawk, Assistant Secretary for 
            Indian Affairs, U.S. Department of the Interior

    Good morning Chairman Akaka and Vice-Chairman Barrasso, and members 
of the Committee on Indian Affairs. Thank you for the opportunity to 
provide the Department of the Interior's (Department) statement on the 
fiscal year (FY) 2012 President's Budget request that was released on 
February 14, 2011 for Indian Affairs' programs. The FY 2012 budget 
request for Indian Affairs programs within the Department totals $2.5 
billion in current appropriations. This reflects $118.9 million, a 4.5 
percent decrease, from the FY 2010 enacted level. The budget includes a 
reduction of $50.0 million to eliminate the one-time forward funding 
provided in 2010 to Tribal Colleges and Universities; a reduction of 
$41.5 million for detention center new facility construction due to a 
similar program within the Department of Justice; and a reduction of 
$22.1 million for administrative cost savings and management 
efficiencies.
    Overall, the 2012 Indian Affairs budget reflects a fiscally 
responsible balance of the priorities expressed by the Tribes during 
consultation and broader objectives of the Administration, as well as 
demonstrated program performance, and realistic administrative 
limitations. The 2012 budget focuses on core responsibilities to 
American Indians and Alaska Natives through programs and services that 
are vital to Indian Country and that benefit the greatest number of 
Indian people on a nationwide basis. The budget focuses on priority 
areas in Indian Country and honors the Federal Government's obligations 
to tribal nations in a focused and consulted manner.
    As the Assistant Secretary for Indian Affairs, I have the 
responsibility to oversee the numerous programs within the Bureau of 
Indian Affairs (BIA) and the Bureau of Indian Education (BIE), along 
with other programs within the immediate office of the Assistant 
Secretary for Indian Affairs. The Office of the Assistant Secretary for 
Indian Affairs, BIA, and BIE programs expend over 90 percent of 
appropriations at the local level. Of this amount, at least 62 percent 
of the appropriations are provided directly to tribes and tribal 
organizations through grants, contracts, and compacts for tribes to 
operate government programs and schools. Indian Affairs' programs serve 
the more than 1.7 million American Indian and Alaska Natives living on 
or near the reservation.
    The Indian Affairs FY 2012 budget request provides funding for 
three of the Department's priority initiatives: Strengthening Tribal 
Nations, New Energy Frontier, and Cooperative Landscape Conservation.

Strengthening Tribal Nations
    The Strengthening Tribal Nations initiative is a multi-faceted 
approach to enhance Nation-to-Nation relationships, improve Indian 
education, protect Indian communities, and reform trust land 
management, with the ultimate goal of greater tribal self-
determination. This initiative was highlighted over a year ago when 
President Obama and his Administration engaged in direct dialogue with 
Tribal Nations in November 2009 at the White House Tribal Nations 
Conference held at the Department's Yates Auditorium, with over 400 
tribal leaders in attendance. The President held a second successful 
conference in December 2010 to continue dialogue and work with Tribal 
Nations.

Nation-to-Nation Relationship
    The Administration, in believing that investing in Indian Country 
is the key to advancing our Nation-to-Nation relationship, seeks $42.3 
million in programmatic increases for contract support, self 
determination contract specialists, and social workers. At the 
forefront of this investment is contract support, which was identified 
by many Tribal Nations as their top priority.
    Funding contract support costs encourages tribal contracting and 
supports Indian self-determination. Contract support funds are used by 
Tribes that manage Federal programs to pay a wide range of 
administrative and management costs, including finance, personnel, 
maintenance, insurance, utilities, audits, communications, and vehicle 
costs.
    The requested FY 2012 increases will also allow the BIA to fund 
Self-Determination Specialist positions to ensure proper contract 
oversight. In addition, it will allow the BIA to add more social 
workers to assist tribal communities in addressing problems associated 
with high unemployment and substance abuse. Through this assistance, 
and by addressing these problems, there will be positive indirect 
impacts on public safety and education in these tribal communities. We 
also plan for $3.0 million of this request for approximately 86 Alaska 
and 17 ``lower-48'' Small and Needy Tribes that both have populations 
below 1,700 and receive less than the recommended threshold for base 
funding. These funds will bring these Tribes to the minimum funding 
necessary to strengthen their tribal governments ($160,000 in the 
lower-48 and $190,000 in Alaska).
    In addition, reflecting a top priority of President Obama, 
Secretary Salazar and I, the budget request includes language 
confirming the Department of the Interior's authority to acquire land 
in trust for all federally recognized tribes. Taking land into trust is 
one of the most important functions that the Department undertakes on 
behalf of Indian tribes. Since 2009, the Department has acquired more 
than 34,000 acres of land in trust on behalf of Indian nations. Tribal 
homelands are essential to the health, safety and welfare of American 
Indians and Alaska Natives.

Protecting Indian Country
    For the past several years, Tribal Nations have consistently 
identified public safety as one of their top priorities. The BIA 
supports 193 law enforcement programs throughout the nation. Within the 
193 programs, there are 6 district offices and 187 programs performing 
law enforcement services consisting of: 36 BIA-operated programs and 
151 tribally-operated programs. Approximately 78 percent of the total 
BIA Office of Justice Services (OJS) programs are outsourced to tribes.
    President Obama, Secretary Salazar and I have prioritized public 
safety based on feedback from the respective tribes. The FY 2012 budget 
request seeks an additional $20.0 million in public safety funding over 
the FY 2010 enacted level. Within the increase, $5.1 million is for 
tribal and bureau law enforcement operations and $10.4 million for 
tribal and bureau detention facilities operations. The funding will be 
used for staffing, training, implementation of the Tribal Law and Order 
Act, and equipment to increase staffing capacity for law enforcement 
and detention programs and ensure communities can support efforts to 
combat crime in Indian Country. The budget requests an additional $1.0 
million, for a total of $13.8 million in funding for detention 
facilities operations and maintenance throughout Indian Country.
    The budget includes $2.5 million for tribal courts to support the 
enhanced capabilities given to tribal courts in the Tribal Law and 
Order Act. The increases to tribal courts and corrections will augment 
recent increases to the size of the tribal police forces over the last 
several years, which is part of a multistep plan to strengthen tribal 
justice systems.
    The budget also includes $1.0 million for tribal Conservation Law 
Enforcement Officers (CLEO). The CLEO's primary responsibility is the 
protection of tribal natural resources; however, officers are often 
cross-deputized with local law enforcement agencies providing CLEOs 
with the authorization to enforce criminal law.

Advancing Indian Education
    The BIE is one of only two agencies in the Federal government that 
manages a school system, the other being the Department of Defense. 
Education is critical to ensuring a viable and prosperous future for 
tribal communities and American Indians. It is this Department's goal 
to improve Indian education and provide quality educational 
opportunities for those students who attend the 183 BIE funded 
elementary and secondary schools and dormitories located on 64 
reservations in 23 states and serving approximately 41,000 students.
    The FY 2012 request maintains the President's, Secretary Salazar's, 
and my ongoing commitment to improve Indian education for students in 
bureau-funded schools and tribally controlled colleges. The budget 
provides an increase of $8.9 million to improve the state of BIE 
schools. We plan to use $3.9 million to promote safe and secure schools 
by implementing safety and security measures at 10 schools and 2 
dormitories. This request also includes an increase of $2.0 million, 
which will provide funds for additional professionals to conduct 
environmental audits at BIE schools.
    Another component of BIE funding is Tribal Grant Support Costs, 
which cover administrative and indirect costs at 126 tribally 
controlled schools and residential facilities. Tribes operating BIE-
funded schools under contract or grant authorization use these funds to 
pay for the administrative overhead necessary to operate a school, meet 
legal requirements, and carry out other support functions that would 
otherwise be provided by the BIE school system. The budget increases 
funding for these activities by $3.0 million.

Improving Trust Land Management
    In addition to the human services components of Indian Affairs, the 
United States holds 55 million surface acres of land and 57 million 
acres of subsurface mineral estates in trust for tribes and individual 
Indians. Trust management is vital to tribal and individual economic 
development. The management of Indian natural resources is a primary 
economic driver in many regions within the country. For example, some 
of the larger forested tribes operate the only sawmills in their region 
and are major employers of not only their own people, but of the non-
tribal members who live in or near their communities
    This Administration seeks to continue advancing the Strengthening 
Tribal Nations initiative by assisting tribes in the management, 
development and protection of Indian trust land, as well as natural 
resources on those lands. The FY 2012 budget request includes $18.4 
million in programmatic increases for land and water management 
activities. Those activities include: $1.2 million for land development 
in the former Bennett Freeze area in Arizona on the Navajo Nation 
reservation and $1.0 million for the Forestry program.
    The 2012 budget provides $2.0 million for the Rights Implementation 
program and the Tribal Management and Development program to support 
fishing, hunting, and gathering rights on and off reservations. The 
request provides $2.0 million for Fish, Wildlife, and Parks programs 
and projects to support fisheries management at BIA and tribal levels. 
The budget also provides an additional $500,000 for the Invasive 
Species/Noxious Weed Eradication program to provide weed control on 
20,000 acres.
    The budget proposes an additional $1.0 million for the Water 
Management and Pre-Development program to assist tribes in the 
identification and quantification of water resources; $1.0 million for 
Water Rights/Litigation to defend and assert Indian water rights. The 
budget also provides an increase of $3.8 million to help BIA address 
dam safety deficiencies and ensure public safety near high hazard dams 
in Indian Country.
    Additional increases for Improving Trust Land Management are 
included in the New Energy Frontier and the Cooperative Landscape 
Conservation initiatives.

New Energy Frontier Initiative
    The Office of Indian Energy and Economic Development (IEED) works 
closely with tribes to assist them with the exploration and development 
of tribal lands with active and potential energy resources. These lands 
have the potential for renewable and conventional energy resource 
development. The FY 2012 budget includes an increase of $3.5 million in 
Indian Affairs for conventional and renewable energy projects as part 
of the Department's New Energy Frontier initiative, which will allow 
Indian Affairs and tribes to explore and develop 1.8 million acres of 
active and potential energy sources on tribal land. The IEED provides 
funding, guidance, and implementation of feasibility studies, market 
analyses, and oversight of leasehold agreements of oil, gas, coal, 
renewable and industrial mineral deposits located on Indian lands.
    This increase includes $2.0 million in the Minerals and Mining 
program to provide grants directly to tribes for projects to evaluate 
and develop renewable energy resources on tribal trust land, a vital 
first step before energy development can begin. The budget also 
contains a $1.0 million increase for conventional energy development on 
the Fort Berthold Reservation. To further expedite energy development 
on the Fort Berthold Reservation, Indian Affairs, the Bureau of Land 
Management, Bureau of Ocean Energy Management, Regulation and 
Enforcement, and the Office of the Special Trustee for American Indians 
created a ``virtual'' one-stop shop. The IEED--Division of Energy and 
Mineral Development, at the one-stop shop, has been proactive in using 
technology and technical assistance to process permits on the Fort 
Berthold Reservation. In 2010, the number of wells went from zero wells 
at the start of 2010 to over 100 producing wells at the end of 2010. It 
is anticipated that in 2011 this number will double to over 200 
producing wells on Indian trust lands. The budget includes a $500,000 
increase to support staff onsite, as well as provide on-call access to 
the full range of the Department's operational and financial management 
services.
    In addition, IEED supports economic growth in Indian Country and 
assists Indian Tribes in developing economic infrastructure, augmenting 
business knowledge, increasing jobs, businesses, capital investment, as 
well as developing energy and mineral resources on trust lands. IEED 
has initiated many programs, projects, technical conferences and 
training programs to address the lack of employment, and intends to 
continue these efforts.

Cooperative Landscape Conservation Initiative
    Indian Affairs will co-lead the North Pacific Landscape 
Conservation Cooperative (LCC) with the U.S. Fish and Wildlife Service 
and support tribal outreach efforts of other LCCs, particularly those 
in the northwestern U.S. In the North Pacific Cooperative, Indian 
Affairs will seek tribal input and perspective from tribes with 
traditional ecological knowledge; and both Indian Affairs staff and 
local tribal members will be involved to develop strategies to address 
adaptation.

Requested Decreases
    The initiatives described above, and the related increases in the 
Administration's request, mark a continued step toward the advancement 
of the Federal Government's relationship with tribal nations. These 
initiatives focus on those programs geared toward strengthening tribal 
nations and reflect the President's priorities to support economic 
development in Indian Country.
    The President has also called upon members of his Administration to 
meet important objectives while also exercising fiscal responsibility. 
Consistent with that directive, we made several difficult choices in 
the FY 2012 appropriations request for Indian Affairs.
    The 2012 request includes $43.3 million in program decreases for 
the Operation of Indian Programs account including administrative 
central office reductions of $14.2 million for streamlining and 
improving oversight operations and to correspond to other programmatic 
cuts within the 2012 request. The budget reduces Real Estate Projects 
by $10.9 million; the remaining funds will be used to focus program 
operations on cadastral surveys as a catalyst for economic development 
for tribes. The budget reduces Land Records Improvement by $8.5 
million; the remaining funds will maintain core operations for the 
Trust Asset and Accounting Management System. The budget reduces the 
Probate Backlog by $7.5 million as over 18,000 cases are expected to be 
completed.
    The Indian Affairs 2012 budget includes $32.9 million for ongoing 
Indian land and water settlements, which includes a reduction of $14.5 
million reflecting completion of the Pueblo of Isleta, Puget Sound 
Regional Shellfish, and Soboba Band of Luiseno Indians settlements. The 
budget includes $9.5 million for the sixth of seven required payments 
for the Nez Perce/Snake River Settlement. The Omnibus Public Land 
Management Act of 2009 authorized payments to Shoshone-Paiute Tribes of 
the Duck Valley Reservation; this budget includes $12.0 million for the 
third payment for that settlement. The Act also authorized settlement 
payments to the Navajo Nation; the budget includes $6.0 million for 
Navajo Nation Water Resources Development Trust Fund and $4.4 million 
for the San Juan Conjunctive Use Wells and San Juan River Navajo 
Irrigation Rehabilitation Project which are part of the Navajo-Gallup 
Settlement.
    The Construction program contains program reductions of $65.0 
million. Of this programmatic decrease, $41.5 million for Public Safety 
and Justice new facility construction has been reduced from the 
Construction budget. The budget is reduced by $8.9 for Education 
Replacement Facility Construction, $5.0 million for Public Safety and 
Justice Employee Housing; the Department has taken a strategic approach 
to not fund new construction in 2012. At the requested level, the 
Education Construction budget redirects funding from new construction 
activities to Facility Improvement and Repair to achieve greater 
flexibility in maintaining existing facilities and employee housing.
    The budget includes a reduction of $9.0 million for the Navajo 
Indian Irrigation Project. Indian Affairs is evaluating continuing 
construction on the Navajo Indian Irrigation Project. Additionally, 
$57.3 million was transferred from Construction to the Operation of 
Indian Programs account so to better align and consolidate operations 
and maintenance funding.
    The request takes into consideration the $285.0 million that was 
provided to Indian Affairs for school and detention center construction 
activities and $225.0 million provided to the Department of Justice for 
detention center construction in Indian Country under the American 
Recovery and Reinvestment Act (Recovery Act). With funding from the 
Recovery Act, Indian Affairs will complete a number of high priority 
projects.
    Although there are decreases to the construction programs in the 
appropriations request, the appropriations request does contain the 
following construction items: $52.1 million for Education, $11.3 
million for Public Safety and Justice, $33.0 million for Resource 
Management, and $8.5 million for Other Program Construction.
    The budget provides $3.1 million for the Indian Guaranteed Loan 
program, a reduction of $5.1 million from the 2010 Enacted level. The 
program will undergo an evaluation, develop a comprehensive performance 
metric framework, and improve efforts to work with other Federal 
agencies that assist tribes in loans.
    The 2012 budget includes a reduction of $3.0 million for the Indian 
Land Consolidation Program. The Claims Resolution Act of 2010 included 
the Cobell v. Salazar settlement agreement. The agreement includes $1.9 
billion for land consolidation within the Office of the Secretary. This 
new funding will utilized to consolidate fractionalized land interests 
to be more economically viable for tribes.

Conclusion
    We are aware of the current fiscal challenges our nation faces. 
This Administration understands the need to take fiscal responsibility, 
and also understands the need to strengthen tribal nations, foster 
responsible development of tribal energy resources, and improve the 
Nation-to-Nation relationship between tribal nations and the United 
States. It is our sincere belief that we have struck a balance in this 
FY 2012 budget request for Indian Affairs that achieves the President's 
objectives of fiscal discipline while at the same time meeting our 
obligations to tribal nations with which our Federal government has a 
Constitutionally-based government-to-government relationship.
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Secretary Echo Hawk.
    And now we will ask Director Roubideaux to proceed with 
your statement.

      STATEMENT OF HON. YVETTE ROUBIDEAUX, M.D., M.P.H., 
DIRECTOR, INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND 
 HUMAN SERVICES; ACCOMPANIED BY RANDY GRINNELL, DEPUTY DIRECTOR

    Dr. Roubideaux. Mr. Chairman and Members of the Committee, 
good morning. I am Dr. Yvette Roubideaux and I am the Director 
of the Indian Health Service. I am accompanied by Mr. Randy 
Grinnell, the Deputy Director.
    I am pleased to have the opportunity to testify on the 
President's 2012 budget request for the Indian Health Service.
    While the President's fiscal year 2012 budget for the 
entire Federal Government reflects hard choices necessary to 
control the deficit, the IHS budget request reflects the same 
commitment by President Obama to honor treaty commitments made 
by the United States, reflects Secretary Sebelius' continued 
priority to improve IHS, and represents one of the largest 
annual percent increases in discretionary budget authority 
compared to other operating divisions within the Department of 
Health and Human Services.
    This budget was built upon tribal priorities and maintains 
current services and focuses program funding increases to be 
distributed broadly across as many patients and communities as 
possible. Our agency priorities are to renew and strengthen our 
partnership with tribes; to reform the IHS; to improve the 
quality of and access to health care; and to make all of our 
work transparent, accountable, fair and inclusive.
    The fiscal year 2012 President's budget request and 
discretionary budget authority for the IHS is $4.6 billion, an 
increase of $571.4 million or a 14 percent increase over fiscal 
year 2010 enacted funding levels. The request includes 
increases to maintain current services, including pay costs for 
Commission Corps personnel, inflation and population growth, 
and funding to start and operate newly constructed health 
facilities, including facilities completely constructed by 
tribes under the Joint Venture Construction Program. The 
success of the Joint Venture Program demonstrates the strong 
commitment of this Administration and the tribes to reduce the 
backlog of health facility construction projects and staffing 
needs.
    The IHS proposed budget also includes a total increase of 
$169.3 million for contract health services, the top tribal 
priority for program increases. And this increase will help 
meet the significant needs for referrals for medical services 
in the private sector.
    The budget request also includes $54 million for the Indian 
Health Care Improvement Fund and will allow approximately 88 of 
our lowest-funded hospitals and health centers to expand health 
and primary care services. To fund the shortfall in contract 
support costs, a $63 million increase is included for tribes 
for the management of health programs previously managed by the 
Federal Government.
    The budget request also includes modest increases for 
health information technology security, prevention of the 
principal risk factors for chronic diseases, smoking and 
obesity, and expands access to and improving quality of 
substance abuse treatment in our primary care settings.
    For the facilities appropriation, the total health care 
facilities construction budget is $85.2 million for 
construction to continue on the replacement hospital in Barrow, 
Alaska; the San Carlos Health Center in Arizona; and the 
Kayenta Health Center on the Navajo Reservation. It will also 
fund the design and site-grading of the Youth Regional 
Treatment Center for Southern California.
    This budget helps us continue our work to bring reform to 
the Indian Health Service. In my first year as Director, I 
sought input from tribes and staff on where improvements are 
needed in IHS. In this past year, input from external 
stakeholders have reinforced the need for change and 
improvement in IHS, improving the way we do business, and to 
focus more on our oversight responsibilities to assure 
accountability in providing quality health care in the most 
effective and efficient manner.
    We are working hard to make improvements and implement the 
recommendations of this Committee from the Aberdeen Area 
investigation. The budget includes funding increases for direct 
operations and business operations support to improve our 
business capacity and oversight.
    We are making progress on implementing the Indian Health 
Care Improvement Act with permanent reauthorization included in 
the Affordable Care Act. This budget proposes funding for two 
high-priority demonstration projects: youth telemental health 
project and innovative health care facility construction.
    IHS is predominantly a rural, highly decentralized Federal, 
tribal and urban Indian health system that provides health care 
services under a variety of challenges. However, IHS has proven 
its ability to improve the health status of American Indians 
and Alaska Natives over the years. This budget request for the 
IHS is a necessary investment in winning the future that will 
result in healthier American Indian and Alaska Native 
communities.
    Thank you for the opportunity to present the President's 
fiscal year 2012 budget request for the Indian Health Service. 
I would be happy to answer questions.
    Thank you.
    [The prepared statement of Dr. Roubideaux follows:]

 Prepared Statement of Hon. Yvette Roubideaux, M.D., M.P.H., Director, 
 Indian Health Service, U.S. Department of Health and Human Services; 
             accompanied by Randy Grinnell, Deputy Director

    Mr. Chairman and Members of the Committee:
    Good morning. I am Dr. Yvette Roubideaux, Director of the Indian 
Health Service. I am accompanied today by Mr. Randy Grinnell, Deputy 
Director. I am pleased to have the opportunity to testify on the 
President's FY 2012 budget request for the Indian Health Service (IHS).
    While the President's FY 2012 budget for the entire federal 
government reflects hard choices necessary to control the deficit, the 
IHS budget request reflects a sustained commitment by President Obama 
to honor treaty commitments made by the United States and to provide 
for a necessary investment in our future. In addition, the FY 2012 
budget request reflects Secretary Sebelius' continued priority to 
improve the IHS, and represents one of the largest annual percent 
increases in discretionary budget authority, compared to other 
operating divisions within the Department of Health and Human Services. 
This request will help IHS further meet its mission to raise the 
physical, mental, social and spiritual health of American Indians and 
Alaska Natives to the highest level.

Agency and Tribal Priorities
    This budget request was built upon tribal priorities identified 
during the IHS budget formulation process. Tribes have consistently 
expressed that maintaining current services must be addressed before 
programs are expanded, and they have consistently identified the need 
for program funding increases to be distributed broadly across as many 
patients and communities as possible. The agency priorities provide a 
framework for responding to the Tribes and improving what we do and how 
we do it. Specifically, our agency priorities are:

<bullet> Renew and strengthen our partnership with Tribes
<bullet> Reform the IHS
<bullet> Improve the quality of and access to health care
<bullet> Make all of our work transparent, accountable, fair and 
    inclusive

Budget Request
    The FY 2012 President's budget request in discretionary budget 
authority for the IHS is $4.6 billion; an increase of $571.4 million, 
or 14 percent, over the FY 2010 enacted funding level.

Maintaining Current Services
    The request includes $327.5 million in increases for pay costs for 
Commissioned Corps personnel, inflation and population growth that will 
cover the rising costs of providing health care to maintain the current 
level of services provided in IHS, Tribal, and Urban Indian Health 
Programs. This amount also includes $71.5 million to staff and operate 
newly constructed health facilities, including facilities completely 
constructed by Tribes under the Joint Venture Construction Program, one 
facility constructed primarily from Recovery Act funds, and one 
facility constructed by the Army Corps of Engineers. The success of the 
Joint Venture program demonstrates the strong commitment of this 
Administration and the Tribes to reduce the backlog of health facility 
construction projects and staffing needs.

Funding Increases to Improve Quality of and Access to Care
    The IHS proposed budget includes a $243.9 million increase for a 
number of programs and initiatives that will increase access to care, 
and strengthen the capacity of the Indian health system to provide 
clinical and preventive care. This budget will also help address 
longstanding unmet needs and inequities in funding levels within the 
Indian health system. The budget request includes a total increase of 
$169.3 million for the Contract Health Services (CHS) program, the top 
Tribal priority for program increases. This increase will help meet the 
significant need for referrals for medical services in the private 
sector. The increase provides $79.6 million to maintain current 
services and $89.6 million to expand the program. Within the 
programmatic increase, $10 million will be targeted to the Catastrophic 
Health Emergency Fund (CHEF), for a total funding level of $58 million 
for the CHEF to help pay for very high-cost cases. The budget request 
also includes $54 million for the Indian Health Care Improvement Fund 
and will allow approximately 75 of our lowest funded hospitals and 
health centers to expand health and primary care services. To fund the 
shortfall in Contract Support Costs (CSC), a $63.3 million increase is 
included for Tribes that have assumed the management of health programs 
previously managed by the Federal government. These increases represent 
some of the highest priorities identified by Tribes over the past 
several years, as well as by me to increase the recurring base budget 
for our patients' provide needed healthcare services.
    In this budget request we also target modest but important funding 
increases to specific activities to improve quality and access to care. 
A request of $4 million for Health Information Technology will address 
critical security maintenance and enhancements, and facilitate IHS 
participation in external exchanges and support meaningful use 
requirements. Prevention of chronic illness, currently widespread and 
costly in the American Indian and Alaska Native population, will be 
enhanced by the request for $2.5 million in competitive awards to 
reduce the principal risk factors of chronic diseases, i.e., smoking, 
obesity, and a sedentary lifestyle. IHS also has an important role in 
the national drug control strategy, as behavioral health issues are 
pervasive throughout Indian communities. Therefore, the budget requests 
$4 million for a competitive grant program to expand access to and 
improve quality of substance abuse treatment in our primary care 
settings.
    For the Facilities appropriation, the overall request is $457.7 
million, with an increase of $62.9 million over the FY 2010 funding 
level. Within this increase, the total Health Care Facilities 
Construction budget is $85.2 million, for construction to continue on 
the replacement hospital in Barrow, Alaska, the San Carlos Health 
Center in Arizona, and the Kayenta Health Center on the Navajo 
Reservation. It will also fund the design and site grading of the Youth 
Regional Treatment Center for Southern California.

Funding Increases to Reform the IHS
    This budget helps us continue our work to bring reform to the IHS. 
In my first year as Director, I sought input from Tribes and staff on 
where improvements are needed in IHS. Tribal priorities for reform 
focused on broad issues such as the need for more funding, the 
distribution of resources, and improving how we consult with Tribes. 
Staff priorities focused on how we do business and how we lead and 
manage people. In this past year, input from external stakeholders have 
reinforced the need for change and improvement in the IHS and to focus 
more on our oversight responsibilities to assure accountability in 
providing quality health care in the most effective and efficient 
manner possible. We are working hard to make improvements and implement 
the recommendations of this committee from the Aberdeen Area 
investigation.
    This budget includes funding increases for Direct Operations and 
Business Operations Support to improve our capacity for performing the 
functions highlighted above. The funds for Direct Operations will allow 
us to focus on improvements in the hiring process, recruitment and 
retention, performance management, and more effective financial 
management and accountability. The funds for Business Operations 
Support will allow IHS and Tribal health programs to focus on ensuring 
effective and efficient processes in billing and collecting from third 
party payers, processing CHS claims, and ensuring the best rates are 
negotiated for health care provided through CHS programs. All of these 
reforms are being conducted as we make all our work more transparent, 
accountable, fair and inclusive.
    We are making progress on implementing the Indian Health Care 
Improvement Act's permanent reauthorization included in the Affordable 
Care Act. This budget proposes funding for two high priority 
demonstration projects: youth telemental health project; and innovative 
healthcare facility construction.

Savings
    This budget request for IHS demonstrates actions to achieve fiscal 
responsibility without endangering patient care. Two areas of proposed 
savings have been identified that allow funds to be targeted to higher 
priority activities. One area is in the small grant programs funded 
within the Hospitals and Clinics budget, where $7 million of savings 
can be accomplished. These grant programs have a small number of 
grantees, ranging from 1 to 11 Tribes or Urban Indian Health Programs 
receiving the awards. Tribes have expressed a preference for direct 
funding rather than competitive grant programs that benefit only a few 
Tribes, and the savings achieved here can be redirected towards 
priority budget items that benefit all Tribes. Another area identified 
for savings in FY 2012 is the Sanitation Facilities Construction 
program. Although the overall need for water, sewage and solid waste 
disposal facilities remains significant, funds received in FYs 2009 and 
2010, including Recovery Act funds, totaled nearly $350 million 
compared to an annual appropriation of approximately $96 million for 
both FY 2009 and FY 2010. Redistribution of these funds will, thus, 
lessen the impact of this decrease in base funding.

Indian Health System--Accomplishments
    The FY 2012 budget proposal will provide resources to help the IHS 
further meet its mission. The IHS provides high quality, comprehensive 
primary care and public health services through a system of IHS, 
Tribal, and Urban Indian Health operated facilities and programs based 
on treaties, judicial determinations, and acts of Congress. This Indian 
health system provides services to nearly 1.9 million American Indians 
and Alaska Natives through hospitals, health centers, and clinics 
located in 35 states, often representing the only source of health care 
for many American Indian and Alaska Native individuals, especially for 
those who live in the most remote and poverty stricken areas of the 
United States. The purchase of health care from private providers is 
also an integral component of the health system for services 
unavailable in IHS and Tribal facilities or, in some cases, in lieu of 
IHS or Tribal health care programs. Unlike many other health delivery 
systems, the IHS is involved in the construction of health facilities, 
including the construction of staff quarters necessary for recruitment 
and retention of health care providers, as well as being involved in 
the construction of water and sewer systems for Indian homes and 
communities that lack this basic infrastructure. I know of no other 
health care organization that accomplishes such a wide array of patient 
care, public health and community services within a single system.

Addressing Health Disparities
    For several years since its inception in 1955, IHS made significant 
strides in reducing early and preventable deaths from infectious or 
communicable diseases. However, deaths due to chronic diseases and 
behavioral health conditions have been more challenging to address 
since they result primarily from lifestyle choices and individual 
behaviors. Progress in addressing these disparities will be a sure 
investment in winning the future, as more youth are ushered into 
adulthood without engaging in the risky behaviors that are so prevalent 
in the population today, and as more adults become tribal elders 
without succumbing to the complications of chronic disease.
    Performance through GPRA measures indicates that the Indian health 
system is making progress in addressing health disparities. For 
example, the agency achieved its FY 2010 performance targets for 
mammography and colorectal cancer screenings performed, increasing the 
portion of the population screening by three and four percentage points 
respectively; however, the end result for both indicates less than half 
the user population received these important screenings. Also, while 
the IHS did not fully meet its FY 2010 performance targets for diabetic 
patients with ideal blood sugar control or with controlled blood 
pressure, there were improvements over the previous year's results. 
With this budget proposed for FY 2012, we anticipate seeing a positive 
impact on the lives of American Indian and Alaska Native people and 
progress towards improving the health status of the communities we 
serve.

Closing
    The IHS is a predominantly rural, highly decentralized federal, 
Tribal, and Urban Indian health system that provide health care 
services under a variety of challenges. However, IHS has proven its 
ability to improve the health status of American Indians and Alaska 
Natives over the years. The President's FY 2012 budget request for the 
IHS is a necessary investment in winning the future that will result in 
healthier American Indian and Alaska Native communities.
    Thank you for this opportunity to present the President's FY 2012 
budget request for the Indian Health Service and helping to advance the 
IHS mission to raise the physical, mental, social, and spiritual health 
status of American Indians and Alaska Natives to the highest level, and 
I look forward to working with you over the next year.

    The Chairman. Thank you very much, Director Roubideaux.
    Assistant Secretary Echo Hawk, last year, Congress passed 
the Cobell settlement. It is now up to the court to approve the 
settlement. I understand that you are recused from answering 
questions about the Cobell decision, but do you have someone 
with you today who could answer some critical questions about 
how the settlement is being implemented?
    Mr. Echo Hawk. Chairman Akaka, I believe that Ray Joseph is 
in the room and I would be happy to have him take a place here 
at the table to respond.
    The Chairman. Thank you very much, Mr. Assistant Secretary.
    Mr. Joseph, welcome and let me ask you, part of the Cobell 
settlement includes $1.4 billion for individual Indians whose 
trust accounts were mismanaged. Those individuals eligible for 
the settlement need to opt out of the settlement by April 20th 
if they choose not to participate.
    Can you tell this Committee what type of outreach the 
Department has done to make sure all account-holders are 
identified and made aware of the opt-out provisions in the 
settlement? Also, can you tell the Committee what the opt-out 
rate is so far? And in which regions are the individual 
account-holders opting out at the highest rates?
    Mr. Joseph. Good morning, Chairman, Vice Chairman Barrasso 
and Members of the Committee. My name is Ray Joseph. I am the 
Principal Deputy Special Trustee for American Indians. It is a 
pleasure to be here before you today to answer and address your 
questions.
    The opt-out period is April 20th. You are correct, sir. 
That opt-out rate that you asked about is not information that 
I have readily available, but I can obtain it and provide it to 
you in a short time frame.
    As it relates to specific regions and to the highest rate 
per region, I don't have that information readily available to 
me today, but I will be able to provide that to you in a short 
time afterward.
    As it relates to the outreach that is being done to the 
tribal members to ensure they are being contacted, that is 
being done by Kinsella Media, as well as a company called the 
Garden City Group. That is a group that is being managed by the 
plaintiff's attorneys organization providing television ads, 
outreach through magazines, radio communication and a variety 
of different media outlets that are targeted at specific Indian 
members to make sure they are aware of these issues and aware 
of what their rights are, as well as the procedures to follow.
    There is also a website under Indiantrust.com that also 
addresses these matters and has a complete list of questions, 
FAQs, frequently asked questions to address this matter. A 
phone number as well can be provided to members to contact that 
don't have access to the Internet, and that is 1-800-961-6109.
    So there are a variety of different mechanisms that have 
been utilized to contact members. In addition, Judge Hogan has 
exempted Secretary Ken Salazar, Deputy Secretary Hayes, and the 
Solicitor Hilary Tompkins from the no-contact order. There are 
monthly calls with tribal leaders at this time that Deputy 
Secretary Hayes and Solicitor Tompkins participate in and they 
speak with tribal leaders to address this issue and other 
issues that come up.
    The Chairman. I have also asked about what the rate is so 
far and which regions are individual account-holders opting out 
at the highest rates.
    Mr. Joseph. Mr. Chairman, at this time there have been only 
28 individuals that have opted out. I don't have that 
information as determined by region. We can obtain that 
information and provide it to you. I think it is a very small 
percentage based upon the numbers out of 300,000 or 
approximately 300,000 individual member accounts.
    The Chairman. Please provide us with that information.
    Mr. Joseph. Yes.
    The Chairman. Mr. Echo Hawk, the budget recommends a 
decrease of $5.1 million in the Indian Loan Grant Program. This 
program has proven successful in allowing tribes to build 
reservation businesses and provide access to capital that would 
otherwise be unavailable. I understand that the reason for the 
decrease is because the program may be duplicative at other 
Federal agencies.
    My question to you is, has the Department identified other 
agency programs and funding opportunities available to tribes? 
And have you communicated with tribes about where these 
programs are located?
    Mr. Echo Hawk. Mr. Chairman, this is a good program and it 
has strong support among tribal leaders. There are concerns 
that have been raised not only with the fact that some feel 
that this is duplicate of what is offered primarily by the FDA 
and also by USDA. But there was also concern that under the 
ARRA program funds that were allocated to loan guarantee that 
those were not obligated fast enough.
    But we are working to preserve this program and are 
presently evaluating and coming up with a plan to correct 
whatever concerns have been raised so that we can have this 
program continue to serve Indian Country.
    The Chairman. Dr. Roubideaux, I am pleased to see that the 
President's budget proposal includes an increase in funding for 
the Indian Health Service. As you know, this agency has 
historically been under-funded. However, I was surprised that 
the budget requests $16 million less than the fiscal year 2010 
enacted level for sanitation facilities construction.
    These funds are used to build water supply, sewage and 
solid waste disposal facilities for American Indian and Alaska 
Native homes. The agency's documents indicated that there were 
230,000 homes in need of these facilities. Why does the budget 
request a decrease in funding for this program?
    Dr. Roubideaux. Well, the reduction in the sanitation 
facilities construction was proposed in the budget as a way to 
have grant savings, and the reason for that was we, like 
everyone, had to find ways to help reduce the debt and to find 
ways to save.
    Waste water, sewage, solid waste disposal is so incredibly 
important and we have actually been very fortunate to receive a 
lot of ARRA funding, $68 million, and we also received EPA 
funding of $90 million. And we are still implementing projects 
with that funding. And so we felt that we could absorb a minor 
decrease in this funding, given that those projects are 
ongoing.
    In addition, the funding that we have available will still 
provide those services for 18,000 homes. So we are still making 
sure that we are making progress on an incredible need we have 
for sanitation facilities construction.
    The Chairman. Dr. Roubideaux, the Committee's December 2010 
investigation of part of the Indian Health Service included a 
statement from you describing some of the actions you were 
taking to address the problems that were identified during the 
investigation.
    Can you provide the Committee with an update on your 
efforts to address those problems, either here or later?
    Dr. Roubideaux. Yes. Thank you, Chairman. I can give you a 
brief update now and I am happy to brief staff on the details.
    We take the report of the Senate Committee on Indian 
Affairs on the Aberdeen investigation very seriously. We have 
acknowledged that these problems should not have occurred and 
we are doing everything we can to make sure they are not 
occurring in the Aberdeen area, as well as throughout the rest 
of the system.
    For example, the first thing I did was establish a strong 
tone at the top that we will address these issues and that 
there will be no excuses by staff for not addressing them. The 
second thing was to have a strong improvement in how we hold 
people accountable for taking actions and making these 
improvements. And we have included measures in this year's 
performance plan so the entire agency can make sure that we are 
making progress so people will be held accountable.
    After the hearing, after I heard some of the very serious 
issues that were brought up, I took immediate action and asked 
our Area Directors and everybody throughout the system to make 
improvements. One example is the horrible problem of I guess a 
couple of people had been hired who appeared on the OIG 
exclusion list, which says they are not eligible for Federal 
hire. I immediately established a policy where no one can be 
hired in the Indian Health Service unless the OIG exclusion 
list has been checked and there has been a background 
investigation.
    And we also just to be sure, checked the OIG exclusion list 
for all 15,740 employees at the Indian Health Service. And I 
can say as a result of that revealed no on is on the OIG 
exclusion list in the Indian Health Service.
    We are also addressing the Aberdeen Area concern 
specifically with corrective action plans, training of staff, 
new policies, reviews, new electronic tools for accountability, 
and also trying to increase the number of providers, which is a 
big issue.
    And then finally, as directed by the Committee, we are 
expanding these investigations to the other IHS areas. We just 
completed our first investigation of the Albuquerque area and 
the Billings area is next. And we have been working very 
carefully with the Department of Health and Human Service 
Program Integrity Coordinating Council to make sure that we are 
doing reviews that will make sure that the findings of the 
Aberdeen area investigation are not occurring in the rest of 
the system. And we are putting in sort of long-term 
improvements that will ensure this doesn't occur again.
    So I am grateful to the Committee for that report. It has 
given us a lot of good information to help us make 
improvements. We want to spend our Federal dollars wisely and 
we want to make sure we are as efficient and effective as 
possible.
    The Chairman. Thank you very much for your response.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Echo Hawk, I read your testimony fully and enjoyed the 
parts where you talked specifically about New Energy Frontier 
Initiatives, and I found there were some encouraging words in 
there. And then your conclusion at the end was you wanted to 
foster responsible development of tribal energy resources, and 
I agree completely.
    The President's budget for fiscal year 2012 proposes a 
number of fees, though, for oil and gas development on Indian 
lands. One of these is a processing fee for the APD, the 
applications for permit to drill. And the Department is now 
charging $500 for this, and has been doing that since last 
year, which is a 62 percent increase in fees charged on oil and 
gas development in Indian lands.
    There are other fees as well, like inspection fees ranging 
from $600 to $5,700 for oil and gas leases, that is up 400 
percent from the year before.
    In light of the recent international developments driving 
up the price for gasoline at the pump, I am compelled to ask: 
How do these hefty fees contribute to the development of oil 
and gas resources on Indian lands?
    Mr. Echo Hawk. Vice Chairman Barrasso, I am aware of the 
problems that we have out there with these fees that are added 
on because it inhibits the development of energy resources 
within tribal communities. I was recently on the homelands of 
the Crow Nation in Montana and they raised this issue once 
again. I heard it when I was in North Dakota. And so this is 
something that we have to work with with the BLM because they 
are the agency that is charging the $6,500 fee and we are going 
to try to resolve this within the Department.
    Senator Barrasso. Because it is interesting when you take a 
look at on-shore versus off-shore, the application to drill on-
shore on an Indian reservation right now is actually three-and-
a-half times, three-and-a-quarter times the cost for an off-
shore permit. And you would think in terms of how much it costs 
to actually go and do the evaluation, the off-shore permit is 
$1,959; on-shore on reservations, $6,500. It just doesn't seem 
like a fair application. So I appreciate you taking a look into 
that. Thank you.
    I wanted to get to Wind River Reservation Law Enforcement 
Pilot Program. The BIA's high-priority performance goal pilot 
program was developed to reduce violent crime by 5 percent over 
a two-year period on specifically four reservations, including 
the Wind River Reservation in Wyoming. From all indications, it 
has been a very successful program.
    The proposed 2012 budget indicates that this effort may be 
extended to four additional reservations, and I would encourage 
that. My question is: Will this extension in any way affect the 
effort and resources provided to the four reservations that are 
already being served successfully by the program?
    Mr. Echo Hawk. Vice Chairman Barrasso, first of all, I will 
be visiting Wind River, Wyoming on April 4th, and specifically 
to visit with all of the people that are involved in the high-
priority performance goal that we are operating there.
    That has been a very tremendous success on the four 
reservations that we have worked on. It is a program that is 
designed to reduce violent crime by 5 percent within a 24-month 
time period. Already at this point, we have the latest figure 
showing that the decrease in violent crime has exceeded 11 
percent cumulatively on these four reservations. And we are 
hoping that we can expand that now into other communities.
    We need to demonstrate that given adequate resources, we 
can really reduce crime, and this, of course, affects the 
quality of life of people in those communities.
    Senator Barrasso. Thank you very much.
    If I could, I was going to ask Mr. Joseph a question about 
the Cobell settlement.
    As I noted earlier, I am interested in hearing, at least in 
general terms, how the Department plans to carry out the $1.9 
billion buy-back program included in that settlement. I know it 
still has to be approved by the courts, and that has not 
happened yet. But I would just like to hear how the Department 
plans to implement this program in terms of is it going to be 
in-house, will you use the existing Land Consolidation Program 
staff, are you thinking of hiring contractors?
    If you could just have a little overview and a discussion 
on those aspects of this.
    Mr. Joseph. Thank you for your question, Vice Chairman 
Barrasso.
    I think it is important for us to state that we agree with 
you. We are greatly concerned about this endeavor. It is a very 
large program to go after and I think it is something we take 
very seriously.
    But I do want to stress that we do not have a plan at this 
time. I think the most important thing that we need to focus is 
that we don't want to jeopardize beneficiaries' ability to 
participate in this landmark settlement, all the hard work that 
has gone into this settlement, and the efforts by Congress as 
well as the Administration to make this thing happen.
    So the first thing we want to do is put their interests 
first, if you will, as a fiduciary. And without being able to 
contact them, we can't do consultation for this plan. But that 
doesn't preclude us from doing a lot of, if you will, thinking, 
evaluating, looking at other programs that have been done of 
similar nature, and pre-positioning ideas and concepts. But we 
don't want to in any way dismiss the idea that we are focused 
on tribal consultation.
    So until that settlement that has been finalized by Judge 
Hogan, we cannot put forth a plan. But again from a concept, I 
think it leads to some ideas. There is a lot of good concepts 
out there that we can share upon. We have looked at a number of 
scenarios to do this.
    We are also asking others to present ideas in the outreach 
programs or the outreach discussions that Deputy Secretary 
Hayes and Solicitor Tompkins have had. We have asked those 
individuals to put forth ideas and concepts they might have.
    Again, we don't have a plan, but I think we have a number 
of scenarios in which to attack this problem.
    Senator Barrasso. Thank you very much for that response.
    Mr. Chairman, this is a question that I know you and I are 
both going to continue to come back to and look at and monitor 
this very closely to make sure that everyone is fairly 
represented and taken care of.
    If I could just have one more question for Dr. Roubideaux, 
if I may, Mr. Chairman. Thank you.
    And it is along the line we have discussed before in my 
office, as well as here, the significant concerns with diabetes 
and your landmark research on diabetes among Indian people. And 
I wanted to get into the proposed budget request for the 
contract health services program. I know it is going to 
increase funding by about $169 million over the current level 
of $780 million. The new funding would be distributed based on 
a formula driven by user population, cost of purchasing care, 
access to care.
    Anything that you are thinking of in terms of taking in and 
weighing into this morbidity, mortality rates and other issues 
as how you try to plan to implement this additional spending?
    Dr. Roubideaux. Thank you, first, for your suggestions for 
the contract health services formula. We actually recently 
consulted with tribes on their ideas for how to improve that 
formula. It has a number of factors, but some areas get 
relatively more than other areas, and so everybody wants to 
find a way to get these resources because they are so 
important. They pay for very much medically needed referrals.
    We brought together a Federal-Tribal Work Group in 2010 
which looked at the formula that was originally developed in 
2001, and they felt that we needed to see the impact of the 
formula because we really hadn't had the increases in contract 
health services since 2001.
    So the Work Group is going to review this formula, review 
the results of the tribal consultation, see what was 
recommended, and then they will make recommendations to me 
probably later in the year. So I am looking forward to seeing 
that and interested in any ideas you may have.
    Senator Barrasso. Perhaps we can have an additional 
discussion on morbidity, mortality issues and how they have an 
impact on that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Barrasso, for 
your questions.
    And now I would like to call on Senator Tester for his 
questions.
    Senator Tester. Thank you, Mr. Chairman.
    I will have to have Ray Joseph up again, too, but my first 
question is for Larry Echo Hawk.
    Larry, I talked in my opening statement about the 
unemployment in Indian Country and how it is very high. On some 
reservations in Montana, it is 80 percent. One of the programs 
that is out there is the Indian Loan Guarantee Program. How 
would you assess its abilities to work?
    Mr. Echo Hawk. Senator Tester, this program has operated in 
my view very well. It leverages private investment funds. I 
think the ratio is about 13 to 1. For every dollar we put up in 
the loan guarantee, we are able to get $13 out of private 
investment, and this has had huge impact.
    It has had a fairly low default rate and so it has served 
Indian Country well, but there are concerns in the very tight 
budget climate that we are living in about whether or not there 
are other agencies of the Federal Government that should be 
operating.
    Senator Tester. Okay. Well, let me just back up a little 
bit, then. The Indian Loan Guarantee Program was given $7 
million in the Recovery Act. That money was later rescinded 
because those funds were never obligated, after we worked 
pretty darn hard to get them in.
    I mean, if the program works well, can you explain why 
those funds were never used?
    Mr. Echo Hawk. Senator Tester, I know something about this, 
but I would be happy to have a more detailed response given to 
you to address your question. But in the time frame that we are 
dealing with here with the ARRA funding that went into this 
program, banks were faulted for making risky loans, and so they 
were a bit reticent.
    Senator Tester. Yes, but isn't this backstop for those 
banks? I mean, isn't this fund a backstop to give them some 
guarantee?
    Mr. Echo Hawk. I think that is just one of the issues and I 
think the banks were very cautious. But also on the tribal side 
in terms of borrower equity, there were problems that we were 
facing there. And a lot of the banks that would normally be 
lending were the smaller banks, and they were not receiving a 
lot of Federal assistance.
    Senator Tester. I don't want to put you on the spot, but I 
will. What you are saying is that the banks weren't ready to 
lend the money? Or are you saying there weren't the 
applications to get the banks to lend the money?
    Mr. Echo Hawk. What I am saying is that there were smaller 
banks that we normally would have been doing business through 
the loan guarantee and they were not receiving as much 
assistance as the larger banks would, and that they were just 
averse to making bad loans.
    Senator Tester. Just let me ask you point blank. Were the 
requests that you got for the Loan Guarantee Program processed 
and were banks approached and were you turned down?
    Mr. Echo Hawk. Senator Tester, I don't have the detailed 
information.
    Senator Tester. Okay. If I could get that, it would be good 
because then what I am getting at Larry, and I know your 
commitment to Indian Country. Make no mistake about it. It has 
been solid. But if in fact this program works and if in fact it 
will help reduce unemployment in Indian Country, why the $7 
million wasn't spent and why there is a reduction of $5 
million, those two issues go hand in hand.
    And I understand it is tight budget time. Trust me. We are 
dealing with it. And so that it is. Please get back to me on 
that, if you could.
    Mr. Ray Joseph, real quick. You answered a question from 
the Chairman and the Ranking Member and you said that there was 
no plan at this time for the Cobell settlement, that you would 
have a plan at some point in time after Judge Hogan made his 
decision. I don't want to put words in your mouth, but is that 
basically what you said?
    Mr. Joseph. Thank you for your question, Senator Tester.
    That plan will be devised after consulting with the tribal 
members. That is a collaborative effort.
    Senator Tester. Okay, so a couple of things have to happen. 
Number one, the judge has to make a decision. Right?
    Mr. Joseph. Yes, sir.
    Senator Tester. And then you consult with the tribes. 
Right?
    Mr. Joseph. Yes.
    Senator Tester. Anything else?
    Mr. Joseph. Obviously, that is going to be consulting with 
Congress as well.
    Senator Tester. Okay, that is good. When can we anticipate 
a plan after the judge makes his decision? Do you have any sort 
of time frame on when that could go? And by the way, the fact 
that the Chairman and the Ranking Member and myself have called 
you back up to the table on this, this is a big issue with a 
lot of dough, and we want to make sure it gets to the ground.
    But if we don't have some time frames, I am very, very 
concerned that it might not get to where it needs to be. So can 
you give me some time frames on what you anticipate after the 
judge makes his decision?
    And the gentleman, you can come up if you want and address 
that. It is up to you. I don't want to put you on the spot 
either, but I am just curious. What kind of time frames are we 
looking at? Are we looking a year after the judge makes his 
decision, or six months, three months?
    Mr. Joseph. Senator Tester, that individual is Mike 
Berrigan from the Solicitor's office, so I was asking him for 
clarification on this matter.
    Senator Tester. Okay. Sure.
    Mr. Joseph. At this point, we are still waiting for the 
judge to render his opinion.
    Senator Tester. I have got you.
    Mr. Joseph. And that has not been set in date after the 
fairness hearing. So it is obviously up to the judge's 
discretion at that time frame of when he sets that hearing, or 
I am sorry, he sets the final settlement date.
    After that settlement date, we are also focused on if there 
is an appeal, that precludes the ability for the funds to flow 
to start looking at this.
    Senator Tester. Do you anticipate an appeal?
    Mr. Joseph. I can't say I anticipate or don't anticipate. I 
am not an attorney and this is far out of my level of 
responsibility.
    Senator Tester. Go ahead. We are taking too much time. You 
just need to tell me when it is going to happen. That is all. 
After the judge's opinion, if there is no appeal, when do you 
anticipate there will be a plan? I don't think that is an 
unfair question. If it is, you can tell me and I will do it 
again later.
    Mr. Joseph. Senator Tester, I don't believe your question 
is unfair. I just think it is a very complex question to answer 
because we only control one part of that equation. That is what 
the Department of Interior's effort is to resolve this matter, 
which we take very seriously.
    The other two members are, of course, Congress and the 
tribal consultation piece. We will set forth an overlay of the 
dates we will go out and perform tribal consultation. The 
challenges are going to be for those organizations, consulting 
with a number of these tribes, which are over 500, and then 
getting meaningful feedback and incorporating it into an 
overall structure.
    Senator Tester. And my time is long past. But here is what 
I would ask you. Could you go back, and assuming there is no 
appeal, what kind of time frame are you looking at for 
implementation, to have a plan? What kind of time frame before 
you have a plan? Because it ain't never going to happen if you 
don't have a plan, right?
    Mr. Joseph. I believe it will happen, Senator Tester.
    Senator Tester. But you have to have a plan or it won't 
happen, right?
    Mr. Joseph. Yes, Senator Tester, you have to have a plan, 
but you also have to understand we have to make sure we take 
into account----
    Senator Tester. I understand. You are exactly right, but 
there is a level of accountability here that I am after. Okay? 
I need to know once the judge makes his decision, I don't know 
when that is going to be, when you anticipate you will have a 
plan. That is all, assuming there is no appeal.
    Okay, so you must have it laid out how long it is going to 
take you to get input from the tribes, you anticipate, and so 
we can move the ball down the court. Okay? That is all. If you 
can get back to me, I would appreciate it.
    I have run out of time. Ms. Roubideaux, I will tell you 
that you have answered many of the questions before. There is 
an issue that deals with youth suicide in Indian Country. 
Hopefully, you can tell me how this budget is going to deal 
with that. It is a big issue, and it involves more than health 
care, for sure. But if you could get back to me on it, that 
would be good.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Tester.
    Now, I will ask for questions from Senator Murkowski, and 
following that I will ask Senator Franken.
    Senator Murkowski, welcome.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good to be back 
with you.
    Dr. Roubideaux, a couple of questions for you first this 
morning. As you know, Tanana Chiefs Conference, South Central 
Foundation and the Copper River Native Association have been 
successful in their efforts for joint venture health 
facilities. We are very encouraged with that. But there is some 
anxiety given what we are facing with the budget and budgetary 
constraints that IHS will not be able to meet its commitment to 
provide the equipment and the staffing packages in fiscal years 
2012 and 2013.
    I have had multiple meetings with folks from these three 
entities, all quite concerned about the timing of this. Can you 
give me any confidence that we are going to be Okay with the 
staffing packages?
    Dr. Roubideaux. Well, thank you, Senator Murkowski, for 
your concern about the joint venture projects. The deal is the 
tribe builds the facility and then IHS requests the 
appropriations for staffing and equipment. And we intend to 
keep our deal and continue to request the staffing and the 
equipment.
    In 2012 budget, we have several joint venture projects and 
a placeholder in place if one of the Alaska joint venture 
projects becomes available and completes construction. And so 
we believe in joint venture. We think it is a great example of 
how tribes and IHS can work together to help reduce the backlog 
of facility construction needs in Indian Country.
    So we will continue to request these funds from Congress. 
We will continue to support the Joint Venture Program and we 
will do everything we can.
    Senator Murkowski. Well, we appreciate your support. We 
certainly think that it is advantageous as well. The concern 
here is all about timing. It is one thing if we are able to 
advance some good infrastructure, some facilities that are most 
desperately needed. But as we have seen in the YKHC region, you 
have a facility and we are still waiting for staffing packages.
    So we are very, very concerned about this timing and we 
need to have a little more assurance that in fact this is all 
going to work together. If there is a schedule going forward, I 
think that that would provide for some confidence.
    On the same lines then, as it relates to facilities, the 
Barrow Hospital remains your top facility on the in-patient 
priority list, presently under construction. We are very 
pleased with that. But we also recognize that it is just tough 
to get the construction materials to Barrow; that the 
construction season is extremely short.
    Do you have any thoughts on how or what we need to do in 
Congress to ensure that this project is seen through to 
completion, IHS's commitment to doing just that?
    Dr. Roubideaux. Yes, we are committed to completing that 
project. We have met with the tribes. We know how important it 
is to them. And the challenges, you are right, of trying to 
purchase enough materials to get on the barges before the ice 
comes and you can't get the materials up there, plus the cost 
of doing the actual construction.
    In fiscal year 2011, we are hopeful that we will have a 
budget soon and that we can continue to do the planning to be 
able to help with our health facilities construction. However, 
we did make a decision to allocate some funding to purchase the 
materials for the barge so at least we can get the materials up 
there. And we are hopeful with the rest of the appropriations 
this year we can continue construction. And when we also have 
proposed a large increase that would help us complete the 
construction on the Barrow project.
    So we are very committed. We are doing everything we can to 
try to keep that moving along, given the unique challenges it 
has with construction and the weather and the transportation 
issues, and the employment issues as well.
    Senator Murkowski. And I think we recognize that with the 
challenges that we have faced with the Continuing Resolution, 
that doesn't respect the fact that you have a very, very brief 
window to get those materials on to the barge that will make it 
up there. I don't think most people in the rest of the world 
realize that you have one barge in the spring, one barge in the 
fall, and if you miss it, you miss it.
    Mr. Echo Hawk, question for you this morning, and thank you 
all for your testimony here today. We have tribal courts that 
exist in Public Law 280 States like Alaska and States that are 
not subject to Public Law 280. Alaska tribes have told me that 
the BIA does not provide funding to tribal courts in Public Law 
280 States even though those tribal courts clearly play an 
important role.
    Is this the case? And if so, what is the justification for 
not providing funding for one and funding for another?
    Mr. Echo Hawk. Senator Murkowski, the Public Law 280 goes 
back to the termination era in the 1950s, 1953. And as a result 
of that, the Federal Government backed away from providing 
these kinds of services in Public Law 280 States. I think there 
is a trend that is changing that.
    I notice the provisions in the Tribal Law and Order Act 
call for the United States on I would call it maybe a pilot 
program basis, to reenter responsibility in those Public Law 
280 States and I think that there is an opportunity perhaps for 
the United States to start providing more funds back into 
communities. I am hoping that that is the direction that the 
budget will be going, paying more attention to law enforcement 
and judicial services in Public Law 280 jurisdiction. But you 
are correct, it has not been the way that the budget has been 
allocated in the past. Those States have been left out.
    Senator Murkowski. So it is not a situation, then, of not 
being able to do it. It is just that historically we haven't 
seen that play out that way. But it sounds, based on your 
comments, that you don't see a reason that it could not change 
so that in the future those Public Law 280 States could take 
advantage of that funding.
    Mr. Echo Hawk. Senator Murkowski, like I said, I think it 
is the trend, and personally it is the direction that I would 
like to go. But without additional resources, what we would be 
doing if we provide service in Public Law 280 States is taking 
away from those tribes that are presently receiving funds.
    And so it is a delicate matter, but I certainly think that 
that is the direction we are going in is for the United States 
maybe to reassume responsibility in Public Law 280 
jurisdictions.
    Senator Murkowski. I have one more question, if I may, Mr. 
Chairman, and this relates to the 477 programs. I understand 
that DOI and HHS were in Alaska and in Washington State last 
week for consultations regarding some changes, and some changes 
that we think would be pretty major.
    Eleven of the 12 regional tribes in Alaska, or excuse me, 
of the regional nonprofits run the 477 programs and there is 
some real concern that these proposed changes might undermine 
the progress that the tribal consortium within the State have 
been made as it puts people to work and really has been very 
helpful to them.
    Can you tell me where these changes originated? How your 
Department justifies moving forward with some of these changes? 
The folks in Alaska, many of them have come to me and said, 
look, this is something that has worked successfully for a long 
period of time. Why now? Why are we seeing this?
    Mr. Echo Hawk. Senator Murkowski, I think I am supposed to 
know everything about everything, but I don't have the detailed 
information on this. Jodi Gillette from our Indian Affairs in 
Interior recently attended a consultation on this, and I think 
rather than try to guess about this, I ought to just get back 
to you in writing to give you details about what we are 
learning from this.
    Senator Murkowski. You can do that, or if Jodi can contact 
us with an update, I would appreciate knowing a little bit 
more. But I would also appreciate your response in writing just 
in terms of what you feel the justification of these changes 
are.
    Mr. Echo Hawk. Okay. I will do that, Senator.
    Senator Murkowski. I appreciate that. Thank you, Mr. Echo 
Hawk.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Echo Hawk, we have discussed school construction 
several times before, and as we have discussed previously, many 
schools are on the waiting list that are in dire need of 
repair. For example, the Bug-O-Nay-Ge-Shig High School on the 
Leech Lake Reservation is literally falling apart, as I 
mentioned in my opening statement.
    Can you explain why the administration has proposed 
decreasing funding for school construction and repairs when 
there is at least a $1.3 billion backlog of school construction 
and repair needs?
    Mr. Echo Hawk. Senator Franken, that is a very good 
question.
    Senator Franken. Thank you.
    Mr. Echo Hawk. Going back to 2001, I think at that time we 
had 120 schools that were in poor condition. We appreciate the 
funding that has been channeled into this area because that has 
been now reduced to 64 schools that are considered in poor 
condition. And we especially appreciated the infusion of about 
$284 million that came in through the ARRA funding, which 
allowed us to construct some new schools.
    But the reality in this 2012 budget is it is about belt-
tightening, and with the limited funds that we had available, 
we have made the strategic decision not to build new schools 
because new schools cost between $20 million and $60 million. I 
am just reminded of the two schools that were built at Navajo. 
I went to cone of them for the groundbreaking, Rough Rock, and 
there is one at Kaibeto. Between those two schools, that was 
$95 million.
    And I am, of course, very happy. A lot of people rejoice 
when we are able to build a new school that is desperately 
needed, but with limited funds, our strategic decision is to 
try to have an impact on a broad basis. So the money that we 
have available that we could have used it to build one or two 
schools, our judgment in these tight budget times is to spread 
that out and try to impact as many students as we can through 
improvement of the schools that are existing. It is not to 
replace the school, but to renovate it and to repair it.
    Senator Franken. I understand. I think in the long run that 
repairing schools that are in incredibly awful condition may be 
less cost-effective than building new schools.
    But speaking of building new things, we have talked before 
about the beautiful juvenile detention facility at the Red Lake 
Reservation that has stood empty. So here is something that was 
built and it is a beautiful structure and it has been unused 
for the past seven years because BIA won't provide funding for 
staffing the place.
    And as you know, the lawsuit over this was settled last 
year, but the building remains empty for lack of permanent 
program funding. Now, for nearly two weeks, my staff has been 
trying to get hold of your criteria for funding operations at 
detention centers under your corrections/detention programs. 
Yet, we still haven't gotten an answer from your agency.
    So I will take this opportunity to ask directly. Can you 
tell me the criteria for the corrections/detention programs?
    Mr. Echo Hawk. Senator Franken, I am sorry that we haven't 
been forthcoming with a timely response according to your 
comment, but I assure you that we will respond immediately to 
that information. I don't have it to give to you today, but we 
will respond very soon.
    Senator Franken. Okay, thank you. I appreciate that. You 
can't know everything about everything. Thank you for agreeing 
to have your staff get back to me.
    Let me go to Dr. Roubideaux. Thank you for being here. 
Thank you both for your service.
    Senator Murkowski and I in a hearing on this were very 
adamant about dental therapists. They work very well in Alaska, 
and one problem we have encountered in Minnesota is the lack of 
dentists available to serve on tribal lands. And access to 
dental care has been such a problem that in our State we passed 
legislation allowing mid-level dental providers to practice.
    Given the success of dental therapists in Alaska and the 
actual failure to recruit enough dentists in Indian Country, 
shouldn't funding be available for mid-level providers so that 
we can increase access to quality dental care?
    Dr. Roubideaux. Certainly in Alaska, they have shown it is 
a very valuable health care provider to add to the team to 
provide important services. What we are doing is reviewing the 
new provisions in the Indian Health Care Improvement Act and we 
are also reviewing the Kellogg Report, which talked about the 
evaluation of the dental health aide therapists. And staff are 
going to be making some recommendations to me soon, and then we 
will determine next steps.
    Senator Franken. Well, can you get back to us as soon as 
you have those conclusions? Because in the hearing we had, it 
became very clear that we aren't providing enough dentists and 
that the program in Alaska has worked wonderfully because 
during that testimony we heard that in certain tribal villages 
in Alaska, they would basically see a dentist only once a year 
who would fly in. And now they have dental therapists who are 
there all year and can talk to the kids about the importance of 
brushing and it reduced the cavities and reduced the damage to 
their dental health tremendously.
    And it seemed from that hearing that we were pretty clear 
that we came to the conclusion that we weren't getting the 
dentists and that dental therapy has been tremendously 
successful in Alaska, and I suggest it will be tremendously 
successful in the rest of Indian Country. So I thank you for 
that.
    Mr. Chairman, thank you for the opportunity.
    The Chairman. Thank you very much, Senator Franken.
    Let me call on Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman. Sorry to 
be visiting with staff so that you didn't see me there.
    Assistant Secretary Echo Hawk, it is my understanding that 
the President's budget includes a decrease of $9 million in 
funding for the Navajo Indian Irrigation Project and that it is 
justified by the creation of a team to determine the long-term 
plan for that project. Has such a team been formed yet? Has the 
Navajo Nation been consulted in this process? What reaction to 
the cut in funding and justification have you received from the 
Navajo Nation? And what is your sense of where we are headed on 
this project?
    Mr. Echo Hawk. Senator Udall, with your permission, I would 
like to ask our BIA Director to respond to your question.
    Senator Udall. Sure, that would be great.
    Mr. Black, go ahead.
    Mr. Black. Thank you, Senator.
    Yes, in fiscal year 2010 at the tribe's request, there was 
a team developed.
    Senator Udall. At the Navajo Nation's request?
    Mr. Black. Yes, at the Navajo Nation's request the 
Assistant Secretary formed a team. The Principal Deputy 
Assistant Secretary, Del Laverdure, is part of the team. And as 
well, we will be convening that team here shortly, hopefully 
with the Nation. And again on I believe it is March 25th, I 
will be meeting with the Nation personally to discuss some of 
the alternatives regarding the overall total completion of 
NIIP, the cost-benefits of a full build-out of NIIP, and 
alternatives to a build-out of NIIP.
    I have received the agenda from the Nation on that meeting, 
so those discussions will be ongoing here shortly.
    Senator Udall. And your understanding is the Nation has 
agreed to all of this?
    Mr. Black. No.
    Senator Udall. Yes, they haven't.
    Mr. Black. I don't believe so. No, sir.
    Senator Udall. Okay. Did they even agree to the formation 
of the team with the discussion of the idea that there may not 
be a full build-out of NIIP?
    Mr. Black. We have not even had the opportunity to sit down 
with the Nation and talk about the budget reduction and the 
options and the alternatives.
    Senator Udall. Okay. Well, we want to stay on top with you 
in terms of what the Nation wants. My understanding they have 
been over the years very frustrated with the funding and the 
development of NIIP and the failure to build-out. So I hope you 
will keep us apprised as we move along and of those meetings 
that are going on out there. Thank you.
    Mr. Black. Yes, sir. I would be glad to do that.
    Senator Udall. Assistant Secretary Echo Hawk, could you 
address the President's cut in funding for the construction of 
schools? I know that Senator Franken asked you about this and 
you may have already answered. It seems to me that, and one of 
the tribal officials, Governor Dasheno is sitting almost 
exactly behind you or right back there in the back, and Santa 
Clara School is one of the 64 schools that is in the list that 
is not getting attention right now. And I am just wondering 
what is the criteria? Why not that school as opposed to another 
school? What is going to happen to those schools waiting for a 
new school to be built? That kind of situation.
    Mr. Echo Hawk. Senator Udall, I won't repeat the comments 
that I have already made about school construction and the 
progress that we have made and the fact that we are all in a 
belt-tightening mode right now. But the good news is that we 
have been involved in a negotiated rulemaking progress that is 
focused directly on cataloguing all school facilities and 
reporting about the need for school replacement and 
construction, and also reporting on major and minor renovation 
needs, and also formulas for equitable distribution.
    And what will be arrived at eventually is a priority list 
that will guide us in how we distribute funding for repair, 
renovation and new schools. We will be going through 
consultation. There have already been five meetings that have 
been held. There will be another couple of them coming up and 
then we will be doing additional consultation on this.
    So I think in the long term, there is a plan to identify 
which schools need to be replaced, which ones need to be 
repaired and renovated, and then we all need to start praying 
that we are going to have the resources to actually execute the 
plan.
    Senator Udall. I will be in with you on that prayer, and I 
hope you also have an opportunity to visit with Governor 
Dasheno before you leave about where Santa Clara is on that.
    Just one final question, Assistant Secretary Echo Hawk. It 
is my understanding that in the last six or seven years, the 
BIA and the DOI Inspector General have done reports on tribal 
detention facilities, both of which had alarming findings. The 
2004 Inspector General's report found that, and I am quoting 
from it, ``BIA has failed to provide safe and secure detention 
facilities throughout Indian Country. Our assessment revealed a 
long history of neglect and apathy on the part of BIA 
officials, which has resulted in serious safety, security and 
maintenance deficiencies at the majority of the facilities.''
    Can you speak on the $46.5 million in reduction in tribal 
jail construction in the President's budget? And how you are 
trying to move forward on these Inspector General reports, 
which I know that you are very interested in the law 
enforcement side of this?
    Mr. Echo Hawk. Senator Udall, I think we are all aware of 
the significant infusion of funding that has gone into law 
enforcement in Indian Country in recent years and this budget 
continues to establish that as a priority. Most of that money 
to this point has gone into police services. Hiring additional 
law enforcement officers is not just putting more police on the 
ground to make arrests. They have to be processed through the 
courts, and thus we have requested an increase for tribal 
courts this year, and also they have to be housed once they are 
sentenced to some detention facility.
    And so the Tribal Law and Order Act addresses that. We have 
some responsibilities working with the Department of Justice to 
come up with long-term plans for detention facilities, so there 
is an orderly process that is beginning to work forward as a 
result of that enactment by the Congress.
    With regard to the $46.5 million reduction, we had to make 
tough choices and we know that the Department of Justice has 
similar program money available, so it is not like there is 
nothing out there that can meet these needs. They are the 
primary department that provides funding for detention 
facilities. The main responsibility that we have is the 
operation and maintenance.
    So yes, there is a reduction there, but that is a strategic 
reduction that we had to make in order to free up money to meet 
other tribal priorities. The $89.6 million I think tribes are 
very happy about that go basically into their tribal priority 
allocations. We have to make some sacrifices, so that was a 
strategic call that we made in this budget.
    Senator Udall. Thank you for that answer. I very much 
appreciate all the testimony from this panel today. I haven't 
been able to get through all my questions, so I will submit 
some of them for the record.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall.
    I want to thank this panel very much for your responses. I 
look forward to continuing to work with you and to try to help 
the indigenous people of our Country as much as we can. We want 
to do that as rapidly as possible. I thank you so much for your 
responses and also want to thank the staff on both sides of the 
aisle for all of their work in preparing for these hearings and 
doing the work of the Indian Affairs Committee.
    So thank you very much and we will certainly see you again.
    Dr. Roubideaux. Thank you, Mr. Chairman.
    The Chairman. I would like to welcome our second panel to 
the witness table.
    The Honorable Ron Allen, who is the Treasurer of the 
National Congress of American Indians in Washington, D.C., and 
the Chairman of the Jamestown S'Klallam Tribe of Sequim, 
Washington.
    We also have with us Mary Jane Oatman-Wak Wak. She serves 
as the President of the National Indian Education Association 
here in Washington, D.C.
    Also joining us is the Honorable Earl Barbry, Sr., from the 
United South and Eastern Tribes in Nashville, Tennessee. He 
also serves as Chairman of the Tunica-Biloxi Tribe of Louisiana 
in Marksville, Louisiana.
    Finally, we have the Honorable James Steele, Jr., who is 
the First Vice President of Affiliated Tribes of Northwest 
Indians, located in Portland, Oregon, and also a Council Member 
in the Confederated Salish and Kootenai Tribes of Pablo, 
Montana.
    Mr. Allen, will you please begin with your statement.

STATEMENT OF HON. W. RON ALLEN, TREASURER, NATIONAL CONGRESS OF 
     AMERICAN INDIANS; CHAIRMAN, JAMESTOWN S'KLALLAM TRIBE

    Mr. Allen. Thank you, Chairman Akaka.
    As you stated, my name is Ron Allen. I am Chairman for the 
Jamestown S'Klallam Tribe located in western Washington State 
and Treasurer for NCAI. It is always an honor to come before 
the Committee and we join the chorus of congratulations in your 
new Chairmanship and we look forward to working with you and 
the Committee on the myriad of issues that face our native 
communities throughout America.
    We know you are well aware of those challenges and 
inclusive of that we are highly anticipating the passage of the 
Native Hawaiian bill that you came close to last session and 
hope that that will happen this session.
    On behalf of President Jefferson Keel, NCAI, and our 
Executive Board, we have submitted to you our testimony. And we 
thank you for accepting the testimony and putting it in the 
record. We would also like to ask that our book that we put out 
every year called ``Indian Country Budget Request,'' * that 
NCAI coordinates with the other national Indian organizations, 
including NIEA and so forth, that that would also be submitted 
for the record.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files 
and can be found at http://www.ncai.org/fileadmin/ncai_events/2010soin/
NCAI_FY2011_Budget_Request.pdf.
---------------------------------------------------------------------------
    Without a doubt, when Indian Country comes to Congress and 
makes requests with regard to our respective community needs, 
the needs are great. And so often over the past years, we are 
used to focusing on the BIA and IHS. Well, that is just simply 
not the case anymore.
    HUD has a role. EPA has a role. Energy has a role. 
Transportation has a role. Agriculture has a role and so forth, 
even to the Department of Defense with regard to the interests 
of Indian Country.
    We are very delighted that Congress passed a couple of 
major bills last session, the Affordable Health Care Act which 
included the reauthorization of the Indian Health Care 
Improvement Act which you have so noted already in the previous 
panel. That was a big deal to us. The Law and Order Act is a 
big deal to us in terms of the authority of the tribes, our 
ability to take care of our own people, and care for the 
safety, the public safety of our people.
    There are a lot of issues that are important to us, but 
nothing is more important than the exercise of our sovereignty, 
the exercise of our governmental authority in our jurisdiction 
to care for the future of our people, their current condition, 
as well as the future.
    And the issue for us is not just that the legislation is 
meaningful, but also how you appropriate the resources in order 
to implement the commitment in the laws. The laws are 
meaningful, but unless they can act to make a difference within 
our communities, they are rhetoric. And so these budget 
requests that we have put out are important to us to make a 
difference.
    We want to express our appreciation to the Administration 
that they have fought hard for our Indian budget. You have 
heard from IHS that they have a very substantial increase of 
$458 or so million increase into their $4.6 billion budget. It 
sounds impressive, but when you measure that against the 
conditions of our Indian citizens across America, we have a 
long way to go. And we know you have heard countless testimony 
about what those needs are.
    Now, the IHCIA improves that situation for us, and what is 
the IHS's role with CMS and with regard to implementation of 
the Health Care Improvement Act, so that we can reach out to 
the other 60-plus percent of our Indian citizens across America 
that are not served by the antiquated IHS system that serves 
only in the service area and not outside the service area. So 
those are going to be big issues for us.
    We want to note to you that the Department of Interior and 
the BIA have made a major step in moving our agenda forward in 
terms of implementing the trust obligation. One of their 
fundamental goals is the empowerment of tribal government.
    So the BIA budget needs to reflect that commitment. And if 
you look to the Department of Interior over the past number of 
years, you see the substantial increases for parks and 
reclamation and minerals and fish and wildlife. At the bottom 
of the pecking order of the priority for the budget system is 
the BIA budget. Over the years, we have the lowest growth of 
any agency of the Department of Interior.
    So the budget doesn't reflect the goal. It doesn't reflect 
that kind of a commitment; 565 Indian Nations, from the largest 
tribe of Navajo Nation to the smallest tribe, that has a myriad 
of issues. And the budget needs to reflect our ability to 
become self-reliant. So if we can't become self-reliant, if you 
are not empowering the tribal governmental infrastructure, the 
legal infrastructure, the physical infrastructure, if you don't 
empower us to be able to create jobs and create businesses, to 
create revenues outside of the Federal Government, then we will 
never be able to accomplish our goals.
    The treaties and the trust obligation have many commitments 
to Indian Country, but quite frankly, we know you can't get 
there. So help us get there together. And these budgets with 
regard to loan guarantee programs, surety bonding guarantee 
programs, things that will empower our governments and our 
businesses so we can make meaningful progress to this agenda.
    I will close since I see my time is up. It is always 
difficult to try to capture the complex issues. Our testimony 
and our budget request I think capture those important issues 
that are in here. We can certainly get into details with you. I 
am looking forward to working with you and answering any 
questions we might.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Allen follows:]

 Prepared Statement of Hon. W. Ron Allen, Treasurer, National Congress 
        of American Indians; Chairman, Jamestown S'Klallam Tribe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Allen.
    Now, we will receive the statement of Mary Jane Oatman-Wak 
Wak. Please proceed.

   STATEMENT OF MARY JANE OATMAN-WAK WAK,PRESIDENT, NATIONAL 
                  INDIAN EDUCATION ASSOCIATION

    Ms. Oatman-Wak Wak. Thank you, Chairman Akaka. [greeting in 
native tongue].
    Thank you to the Creator for gathering us all here today. 
Thank you to the Committee for inviting the National Indian 
Education Association to participate in this hearing.
    NIEA has been tirelessly dedicated to promoting native 
education issues and embracing every opportunity to advocate 
for the unique education and culturally related needs of all of 
our native students.
    In February, I had the opportunity to provide the State of 
Native Education Address, and through this address, we focused 
on the trust responsibility, its breach, the resulting poverty 
in Indian communities of the results of that breach, and shared 
with Indian Country our vision, as well as mechanisms, for 
restoring that trust through education through collaborative 
efforts and partnership with the tribes, Federal agencies, and 
State governments.
    A part of that restoration and the reason that we address 
you today is to address the Federal budget, which is most 
likely the most tangible manner in which we can address the 
restoration of that trust responsibility and the breach of that 
trust.
    Because it all begins and ends with culture. Culture is our 
identity as native peoples, our languages, our traditions. If 
our schooling for our native students does not reinforce 
culture within the classrooms, our students tend to become 
disengaged within that school and within their community.
    I say this without diminishing any other aspect of the 
education process because NIEA embraces a 200 percent education 
philosophy; 100 percent of their traditional cultures and 
values merged with 100 percent high-quality content academia. 
So we see the emergence of those being how our native students 
are going to thrive and succeed in the 21st century.
    Our statistics are also very harsh. Ironically, native 
education has well-documented statistics that paint a bleak 
picture of native student outcomes. Yet at the same time, we 
have inadequate research to focus on promising practices and 
models that can work on that transformation and turnaround 
throughout Indian Country.
    Among the most telling statistics in the Nation is the 
graduation rate for American Indian high school students, which 
was 50 percent in 2005-2006, compared to 69.2 percent overall 
and 76.1 percent for white students.
    Addressing the dropout issue, we feel we cannot be 
realistic without examining some of the other issues around 
adequate yearly progress and high school completion. We also 
have to look at the racial discrimination in the school 
environment that many of our native students are being situated 
and that lead to some of the concerns addressed earlier with 
detention facilities, and many of our native-serving schools 
being that school-to-prison pipeline.
    We also understand that addressing native education in the 
time of tight budgets causes us to have to make those difficult 
decisions in this critical funding area for Indian education. 
What we ask and what we continue to advocate for in these tight 
times is to hold native education harmless. We also understand 
the situation that you are all up against, and are looking at 
areas where there might be duplication or replication of 
services.
    We have also taken time to do that throughout Indian 
Country. And so the proposals that I bring before you today 
have been examined through that lens of the tight budget 
considerations, as well as the perception or any reality of 
duplication or replication of Indian-serving programs.
    Because it has been the mark of the history of this Country 
to have some very anti-Indian policies that kind of led us to 
the situation where we are with our bleak statistics, we 
embrace the No Child Left Behind Title 7 policy which has been 
a more humane policy for Indian Country to address the unique 
educational and culturally related needs of native students.
    The National Indian Education Association urges Congress to 
fulfill the promises made within No Child Left Behind Act and 
stand strong for native youth in the 2012 budget. If the 
Federal Government should cut its investment in Indian 
education initiatives, not only will this be a violation of 
that trust responsibility, but it will also be setting Indian 
education back for generations with an untold loss among our 
native youth.
    When you weigh the budget issues against the needs of 
native education, even President Obama's fiscal year 2012 
budget is insufficient to bring about the transformational 
change that we need for native education. We ask that the 
Committee make every effort to seek increases in this budget, 
even as we understand the work that you must succeed at the end 
of the day in the budget cuts.
    In that context, it is all the more important to marry the 
budget to the smart policies that multiply the value of every 
dollar and to promote an emphasis on the culture and language 
instruction and increase in local and tribal control over 
education as we look to steward our greatest natural resource 
in our Indian Country, our children. And promote an emphasis on 
increasing effective collaborations and partnerships among 
tribes, education organizations, governmental agencies, and 
State education agencies in order to accomplish what is best 
for our children.
    Because the budget is made up of very specific programs, 
NIEA believes that the recommendations that we will focus with 
you on today are in regards to Title 7, education facilities 
construction, tribal grant support costs, addressing concerns 
within the BIE budget, as well as some no-cost proposals or 
initiatives that will yield huge improvements throughout native 
education. And before I close, we will also address some 
concerns with the Continuing Resolution as well.
    A growing body of research through the Kamehameha Schools 
and studies that have been done on culturally based education 
in Hawaii are showing resounding results that the well being, 
self-worth, resiliency and identity of native students 
correlates to an increase in academic achievement and school 
success. We urge that Title 7 national activities research 
dollars have a heavy emphasis and focus on the correlation 
between culturally based education programs and the classroom, 
and that success in core content areas within the academic 
components.
    We also urge your support, and not just level funding, but 
increased funding within those Title 7 programs so that we can 
address the unique cultural and academic needs within the 
classroom, as well as the research that is needed to show that 
those programs work.
    Unfortunately, Indian education has been studied to death 
with a deficit model, and we know that there are successful 
programs that are out there working in our Indian Country and 
we urge support so that we can undertake those kind of studies 
with a large end-size so that we can say this is what works for 
Indian Country.
    Education construction is a huge concern for the National 
Indian Education Association. This assures an adequate facility 
to learn. Safe and secure schools are a huge concern, but we 
also realize that most of our schools that are serving native 
students within the BIE school system have severe concerns. Of 
the 4,495 education buildings in the BIA inventory, half of 
them are more than 30 years old; 20 percent are older than 50 
years old. And on average, the BIA education buildings are 60 
years old. Yet, 40 years is the average life for a public 
school condition.
    Sixty-five percent of school administrators report that the 
physical conditions of one or more school buildings are 
inadequate. We have seen situations where detention facilities 
were closed due to having poorer conditions than the facilities 
that our students are being forced to be educated in.
    We know that the Department of Interior in developing the 
2012 budget request was forced to make those difficult 
decisions. Although we understand that this is the situation, 
redirecting funding for replacement school construction is a 
concern because we realize that not only do we have the concern 
with the backlogs with the BIE school construction, but that 
deferring the critically needed build-up of the new facilities 
could bring higher costs in the future when we take into 
account the cost of inflation and construction costs in the 
future.
    We also want to address tribal grant support costs within 
the scope of increasing tribal control. These tribal grant 
support costs foster tribal self-determination and enable both 
the transfer of the responsibility and the means for tribal 
entities to run their own schools and control the education of 
our youth.
    The fiscal year 2012 budget asks for the same amount of 
tribal grant support cost funding requested in the fiscal year 
2011 budget, even though there are two and perhaps as many as 
five more schools that would be sharing the slice of the pie of 
the $46.3 million requested.
    The Chairman. Ms. Wak Wak, would you please summarize your 
statement?
    Ms. Oatman-Wak Wak. In closing, I would like to bring 
forward a few of those no-cost initiatives within the bureau, 
within our recommendations. One of those is to require the 
Secretary of the Department of Education, as well as Interior, 
to align their agency budgets and policies to ensure more 
adequate access to general education opportunities, as well as 
perhaps a call for a new Government Accounting Office review of 
some of the concerns within the agency, not the schools 
themselves, but within the agency at the Department of Interior 
and some of the concerns around school construction funding.
    In closing, concerns around the Continuing Resolution, 
specifically in regards to the elimination of Perkins funding, 
which would substantially devastate two tribally operated 
technical colleges.
    So with that, thank you for your time.
    [The prepared statement of Ms. Oatman-Wak Wak follows:]

  Prepared Statement of Mary Jane Oatman-Wak Wak, President, National 
                      Indian Education Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much for your statement.
    Chairman Earl Barbry, would you please proceed with your 
statement?

STATEMENT OF HON. EARL J. BARBRY, SR., CHAIRMAN, TUNICA-BILOXI 
    TRIBE OF LOUISIANA; CHAIRMAN, UNITED SOUTH AND EASTERN 
                TRIBES,INC. CARCIERI TASK FORCE

    Mr. Barbry. Mr. Chairman, Committee Members, thank you for 
the opportunity to testify here today. I am Chairman Earl 
Barbry of the Tunica-Biloxi Tribe from Louisiana. I am also 
Chairman of the United South and Eastern Tribes Carcieri Task 
Force.
    As you know, the President's budget includes a legislative 
fix for the Carcieri decision and I am very pleased to testify 
in strong support of that provision. USET firmly believes the 
Supreme Court decision is a fundamental attack on tribal 
sovereignty. The Court's decision creates two classes of 
federally recognized tribes that would be treated differently 
under Federal law: tribes that were under Federal jurisdiction 
in 1934 and tribes that were not.
    The decision also opens the door to confusion about the 
status of tribal lands, tribal businesses and civil and 
criminal jurisdictional issues.
    Mr. Chairman, my written testimony provides a number of 
technical points about why the President's proposal is needed. 
Today, I will share some personal thoughts from Tunica's 
perspective.
    At the time of the Louisiana Purchase in 1803, Tunica-
Biloxi owned tens of thousands of acres of land in Louisiana. 
Through fraud, deceit, encroachment and cold-blooded murder, 
and that is what I said, cold-blooded murder, our landholdings 
dwindled to a fraction of that amount.
    In 1826, the Federal Land Commissioner said that we were 
savages unable to manage our own land and stripped of a Tunica 
settlement that included thousands of acres.
    In the 1840s, a local landowner who regularly encroached 
onto the land shot and killed Chief Melancon, who confronted 
the landowner and protested his encroachments. Mr. Chairman, 
sadly, the Chief lost his life because he was doing something 
that the Federal Government failed to do, and that is to 
provide protection for our lands and the rights of the Tunica 
people.
    By the time the local courts considered this incident, 
Tunica landholdings had been reduced to 134 acres. That 
individual got away with cold-blooded murder and our land, and 
that was wrong.
    This is the amount of Tunica landholdings when we were 
federally recognized in 1980. Since that time, through trust 
application acquisitions, we have been able to ensure a land-
base for current tribal members and for future generations. So 
to me, the Carcieri fix is about Tunica survival.
    Mr. Chairman, the Carcieri fix proposed here does nothing 
more than restore the understanding of the IRA held by the 
Department of Interior and tribes around the Country for 75 
years before the Carcieri decision. However, Congress' failure 
to act may have dire consequences. For example, it creates a 
significant threat to public safety. The decision complicates 
Federal prosecution of crimes committed in Indian Country, as 
well as civil jurisdiction over much of Indian Country.
    Again, I must emphasize the role of IRA in protecting 
tribal homelands and promoting tribal self-determination. Under 
IRA, tribes have been able to rebuild the land bases that are 
the very foundation of tribal governance. Tribal trust 
acquisitions have helped protect traditional practices and have 
also helped spur tribal economic development. This has created 
much-needed financial resources, including jobs for tribal 
communities and surrounding non-Indian communities.
    I urge the Committee to quickly move the proposed IRA 
amendments through the Senate.
    Likewise, USET urges the Committee to support funding 
increases substantially above the inflation rate in several key 
areas. First, tribal priority allocation or TPA is the 
principal source of funds for many tribal governments and is 
used across many areas of need. Past reports indicate that the 
TPA falls well short of identified need. We ask that funding 
for the Eastern Region tribes' TPA increase by at least $9.4 
million.
    Tribal courts are another area of concern. In the Eastern 
Region, only 46 percent of those tribes receive BIA funding for 
the operation of their tribal courts. Without tribal courts, 
tribes are often unable to provide for the protection and well 
being of tribal members. Many programs, including Indian child 
welfare, adult protection and child support enforcement require 
tribes to have established judicial systems before taking on 
these programs.
    Finally, contract support costs are a key area for this 
Committee to consider. When contract support costs are not 
fully funded, tribes must use limited direct program service 
dollars or tribal resources to cover shortfalls, thus forcing 
tribes to cut or under-fund other important programs. The 
President's proposed increase brings BIA to 94 percent of fully 
meeting the obligation.
    Other bureaus within the Department of Interior, as with 
other Federal agencies, have achieved their obligations, paying 
100 percent of contract support to their non-native 
contractors. This discrepancy cannot continue. I might add, it 
also is discriminatory.
    Again, thank you to this Committee for giving me the 
opportunity to testify here today. I would be happy to answer 
any questions.
    [The prepared statement of Mr. Barbry follows:]

Prepared Statement of Hon. Earl J. Barbry, Sr., Chairman, Tunica-Biloxi 
  Tribe of Louisiana; Chairman, United South and Eastern Tribes, Inc. 
                          Carcieri Task Force

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Barbry.
    Now, I will call on Mr. Steele for your statement.

        STATEMENT OF HON. JAMES STEELE, JR., FIRST VICE-
  PRESIDENT, AFFILIATED TRIBES OF NORTHWEST INDIANS; COUNCIL 
        MEMBER, CONFEDERATED SALISH AND KOOTENAI TRIBES

    Mr. Steele. [greeting in native language]. Good morning, 
Chairman and Committee Members. I especially want to 
congratulate Senator Akaka on his new Chairmanship of the 
Committee.
    Also, I would like to thank Senator Tester for the warm 
greeting and welcome earlier. I very much appreciate it and 
appreciate his work on behalf of us in Montana and Indian 
Country.
    My name is James Steele, Jr. I am the First Vice President 
of Affiliated Tribes of Northwest Indians, and I am also 
Council Member of the Confederated Salish and Kootenai Tribes.
    ATNI appreciates the opportunity to testify on the 
President's 2012 budget affecting Indian tribes in the 
Northwest. As of course many of you may know or many may not 
that the tribes in Montana, Wyoming, Oregon, Idaho, the 
Northwest are a diverse bunch, a diverse group of tribes that 
rely on a variety of natural resources from timber, 
agriculture. Some of our tribes are involved in mining, 
hydroelectric projects and such.
    A variety of our tribes have their founding relationships 
with the United States Government based on treaties, and it is 
from that responsibility of the United States Government that 
we in the Northwest believe that our relationships starts with 
the Federal Government.
    I want to mention a little bit about the Honorable 
Congressman Mike Simpson from Idaho, the Chairman of the House 
Interior Appropriations Subcommittee in which he committed to 
try and protect BIA and IHS funding. And he indicated the 
desire to, ``hold programs within the Bureau of Indian Affairs 
and IHS harmless.'' He wrote that the Federal Government has 
the responsibility to help tribes meet needs and solve problems 
in Indian Country. We hope his views are shared by others.
    Due to the diversity of our economies in the Northwest, it 
is difficult to suggest what top priorities within the Federal 
budget might be as well varied from tribe to tribe. The 
responsibilities and the priorities are different from tribe to 
tribe. And to determine what should be cut is difficult.
    I will say one thing about the Federal budget that is going 
through Congress right now. The talk of shutdowns and radical 
budget cuts scares our people. Due to the tremendous influence 
of the Federal Government that it has on our Indian 
reservations and the people of our Indian Reservations, a 
shutdown would hit us harder than any other segment of the 
American population.
    Our BIA-funded schools, our IHS-funded clinics would 
apparently close down very quickly. It really is a large 
concern and I hope Congress, particularly your colleagues in 
the House, really consider the consequences of their action.
    Mr. Chairman, we understand about budget deficits and the 
need to reduce them, and I believe the Indian people would be 
willing to contribute their fair share of reductions needed. 
But first, we need to get to the point where we have something 
even resembling parity with the rest of the population.
    No more clear example of this can be found in what the 
Federal Government spends on health care for various Federal 
beneficiaries. The Indian Health Service spends $1,900 per 
tribal member. The Federal Government spends $3,700 on Federal 
employees for health care, $3,800 for Federal prisoners for 
health care, and almost $6,000 for veterans for health care.
    Are we really worth half of a Federal prisoner and a third 
of a veteran, even when so many of our tribal people have 
bravely fought for this Country? What other explanation is 
there.
    There are similar comparative figures relative to law 
enforcement and natural resource management. Please point these 
horrible disparities out to your colleagues on the Budget and 
Appropriations Committees and ask them if they can be cutting 
these funds for our people.
    One of the things I want to just real quickly mention off 
of my prepared statement here is that one thing we really need 
in Indian Country in terms of self-determination and self-
governance is that we need regional offices and directors of 
the Bureau of Indian Affairs to come alongside and help the 
tribes. Recently, the Confederated Salish and Kootenai Tribes 
converted more than 37,000 fee-acres to trust, more than any 
region in the Country in a Bureau of Indian Affairs region.
    How was that accomplished? One, we had a Regional Director 
named Stan Speaks that came along with tribes and helped us get 
it accomplished. Two, we compacted and ran our own tribal plan. 
And with that, you have to have a partnership between the 
Bureau of Indian Affairs and the tribe to get things done.
    Many times in many regions, the tribe wants to do 
something, but the Bureau of Indian Affairs does not want them 
to do it. Our tribe is an example. We were in the Billings area 
region. We were a self-governance tribe. The Billings area 
didn't want to help us in the 1980s. We moved to the Northwest 
region because the Northwest region was willing to help our 
tribe be self-sufficient and self-determining.
    Mr. Chairman, we had a good example this morning from 
Senator Tester's questions to the Bureau of Indian Affairs. 
That is an example of what tribes go through every day when we 
ask the Bureau of Indian Affairs for a straight question. You 
can't get it. And with all due respect to Mr. Echo Hawk and Dr. 
Roubideaux, they are trying very hard, but you have an 
entrenched anti-progressiveness in the Bureau of Indian Affairs 
that doesn't want Indians to prosper and be successful. Some 
regions, yes; in a lot of regions, no.
    With that, Mr. Chairman, thank you.
    [The prepared statement of Mr. Steele follows:]

  Prepared Statement of Hon. James Steele, Jr., First Vice-President, 
 Affiliated Tribes of Northwest Indians; Council Member, Confederated 
                       Salish and Kootenai Tribes

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Steele, for your 
statement.
    Mr. Allen and Mr. Barbry, as you know, unfortunately we 
were unable to pass the Carcieri fix last year. My question to 
you is this fix a priority in Indian Country?
    Mr. Allen?
    Mr. Allen. Mr. Chairman, unequivocally yes, it is a high 
priority for the tribes. Reacquiring our homelands is a high 
priority for multiple reasons, culturally, housing, economic 
development and so forth. And Carcieri unfortunately created 
two sets of tribes and created a very complex process for the 
Bureau of Indian Affairs.
    To the credit of the Bureau, it is breaking through in 
creating a process for many tribes, but not all tribes. And it 
is simply not providing a fair process for all tribes. And a 
clean, simple fix to Carcieri is an essential priority for 
Indian Country.
    The Chairman. Thank you.
    Mr. Barbry?
    Mr. Barbry. Mr. Chairman, it is the top priority. I have 
served my people for 33 years this month. This is the most 
vicious attack on tribal sovereignty that I have witnessed 
since I have been serving. Every year, there is someone 
chipping away at our sovereignty, but this is the worst attack 
I have ever witnessed.
    And it seems like it would be a fairly simple fix. Why 
create two classes of federally recognized tribes? I don't 
think that question ever came up when the white man was taking 
our lands. They didn't care whether we were under Federal 
jurisdiction or not. They took it anyway.
    The Chairman. Thank you for your response.
    Ms. Oatman-Wak Wak, the President's budget includes an 
increase of $29.5 million for contract support costs for those 
tribes who choose to take over government functions for tribal 
programs. I commend the Administration for this increase 
because I know this has been a priority for tribes for many, 
many years.
    However, as a former educator, I notice that there is only 
a small increase proposed for tribal grant support costs for 
those tribes who take over the operation of their Bureau of 
Indian Education schools.
    My question to you, what is NIEA's position on why there is 
not a larger increase requested for the tribal grant support 
costs program for tribal schools?
    Ms. Oatman-Wak Wak. At the current spending level request, 
that is only about 65 percent of the amount required by law. 
NIEA, again, when we were picking and choosing on some of the 
areas where we were going to be really ambitious, and some of 
our increases are areas where we were going to look at 
maintaining level funding.
    NIEA would definitely like to see tribal grant support 
costs fully funded, but that would take $72.3 million to fully 
fund. And again, this is just kind of one of those areas where 
we felt like, not necessarily an area of sacrifice within the 
budget, but as we were really combing through with a fine-
toothed comb, we realized that tribal grant support costs, it 
is an area where tribes are definitely stepping up to the plate 
and filling that void and that need within their own tribal 
budget through other means.
    But NIEA, as an organization, supports fully funding tribal 
grant support costs.
    The Chairman. Thank you for the response.
    Mr. Steele, the President's budget proposes a $5.1 million 
decrease in the Indian Loan Guarantee Program at the Department 
of Interior. Can you describe some of the projects that ATNI 
members have been able to fund with this program? And what 
impact will it be if this program funding is decreased?
    Mr. Steele. Mr. Chairman, thank you for the question. Some 
of the programs that I am aware of I know from ATNI's 
perspective and maybe some of the other members. I know our 
tribe has used the funding for startup of our resort-casino 
years ago. And so it is a variety of things from different 
tribes. Some of it is resorts. Some of it is small businesses, 
larger businesses.
    I think the impact is basic avenues of funding for tribes 
to do small business or entrepreneurial things is limited. And 
so anytime you are decreasing a pot of money, particularly loan 
programs, for the tribes, it is troubling.
    And I appreciate Senator Tester's questions earlier because 
there is money that the tribes aren't using and in my personal 
opinion it is the red tape to be able to use those funds that 
is in the way.
    The Chairman. Thank you very much.
    Let me ask Senator Udall for his questions.
    Senator Udall?
    Senator Udall. Thank you, Chairman Akaka. Thank you very 
much.
    First of all to this panel, I just want to thank you for 
your advocacy. I think that it has been an excellent panel. I 
think the more that we have advocacy from Indian Country like 
yours, the more we have a better chance here in Washington to 
do what we have to do to fulfill trust responsibilities. And so 
I would just encourage you to keep it up.
    I am going to submit my questions for the record because I 
have a commitment I have to go to. But I did want to just thank 
you for your excellent advocacy.
    I also want to apologize to Governor Dasheno who is here 
from New Mexico representing the Santa Clara Pueblo.
    Governor Dasheno, the most important thing for you to know 
about this hearing is that Larry Echo Hawk stayed here the 
whole time and I was going to encourage you in my questioning 
when you came forward to talk about self-governance, because I 
think the Santa Clara Pueblo has a remarkable record in terms 
of self-governance and how you do that under the laws that are 
in place right now.
    And so my question was going to focus on that. I know 
either in your opening statement or answering questions, you 
will be able to do that.
    And I would just tell all of you that the thing that is 
encouraging to me about the Department is having somebody like 
Larry Echo Hawk there. And when he comes to these hearings, it 
isn't unusual, in fact it is almost the routine, that he stays 
here. He listens to all the panels. He keeps people here so 
that he can assign things and jump on them.
    So I once again thank you, Larry, for being here and thank 
you. I know the commitment that you have.
    Thank you, Mr. Chairman. I very much appreciate these 
hearings, these oversight hearings, and for your commitment to 
indigenous people around the world.
    Thank you.
    The Chairman. Thank you very much, Senator Udall, for your 
remarks. And I thank you for your work with the Committee.
    I want to thank this panel very much for your statements 
and your responses as well. And without question, it will help 
us do our work legislatively as well, but we have to do this 
together. And we will keep in contact with you and your staff, 
and continue to work to improve the conditions of the 
indigenous people of our Country.
    Thank you very much for being here.
    Now, I would like to welcome our third panel to the witness 
table. I understand you may be pressed for time. First, we will 
hear from the Honorable Michael Finley of the Confederated 
Tribes of the Colville Reservation from Washington; the 
Honorable John Blackhawk, who is Chairman of the Winnebago 
Tribe of Nebraska. And finally, we will hear testimony from the 
Honorable Walter Dasheno from the Pueblo of Santa Clara of New 
Mexico.
    I want to thank you very much for being here, and let me 
call on Mr. Finley to proceed with your statement.

  STATEMENT OF HON. MICHAEL O. FINLEY, CHAIRMAN, CONFEDERATED 
               TRIBES OF THE COLVILLE RESERVATION

    Mr. Finley. [greeting in native language] Thank you, 
Chairman Akaka, for calling this hearing today and allowing me 
the opportunity to provide testimony. I did submit mine in 
writing and I will highlight a few of those areas right now.
    The Colville Confederated Tribes which I am Chairman of is 
located in northeast Washington State, at the size of about 1.4 
million acres. On a side note, let me back up. I also serve as 
Chairman to the Intertribal Monitoring Association on Indian 
trust funds. It is a consortium of 65 tribes based out of 
Albuquerque, but I am testifying on behalf of Colville today.
    The Colville Reservation is in northeast Washington State, 
the size of about 1.4 million acres. We are a timber resource 
tribe. We are rich in natural resources, and so obviously a lot 
of the things that we look to do are economic endeavors include 
things that we can use in our natural resources.
    Having said that, we have had difficulty converting some of 
our lands into trust under the 151 fee-to-trust regs. And 
thankfully, with the new Administration, we have been able to 
work through some of those problem areas on the components of 
the 151 regulations.
    And so when the President's budget was unveiled, we were 
saddened to see that $7.5 million that was used to address the 
cadastral surveys and the fee-to-trust process was cut from the 
budget entirely in the process of pushing that responsibility 
down to tribes. In many of our fee-to-trust applications, that 
was one of the things that was holding up a lot of our 
applications on the fee-to-trust. And many of those areas are 
the same areas where we do our timber resources management 
activities and the process for economic development, as well as 
the ag leases, to name a few.
    We are also looking at energy economic development 
opportunities in the way of wind farms, as well as our biomass 
demonstration project.
    So I will just state that if this is cut from the budget, 
it will severely curtail all fee-to-trust applications across 
the Country, not just at Colville. So that in itself I think is 
something that I hope is reconsidered as this process moves 
forward because it is going to continue to stifle economic 
development for larger land-based tribes who have fee-to-trust 
applications.
    We are also concerned about the $2.1 million that is cut 
from the attorneys fees in the litigation program. The $2.1 
million isn't a whole lot, but for us at Colville, it has 
helped us out with our Teck Cominco litigation. The largest 
lead, zinc and copper smelter in the world is located just 
north of the 49th parallel in Canada, who for 100 years have 
been dumping contamination into the Columbia River, which in 
the process floats down the river down to the Colville 
Reservation and further downstream.
    The Colville Tribes have been actively pursuing a cleanup 
of that area and we have actually sued Teck Cominco in court to 
get them to be accountable to the contamination that they have 
put into the river over the years. And it has been in large 
part the Colville Tribe has been doing this on our own with a 
little bit of help from Washington State. Although we have 
asked the Federal Government for assistance, we are yet to see 
that in the way of litigation support from DOJ or any other 
entity under the Federal Government.
    Lake Roosevelt has stated that this same contamination is 
being dumped into this area that borders our reservation. We 
currently patrol about 161 miles of riverfront property that 
bounds our reservation. And right now, we receive about 
$560,000 to do that that we split with the Spokane Tribe. 
Together, we manage and we patrol about 45 percent of the 
shoreline of Lake Roosevelt.
    But in stark contrast, you have National Park Service who 
is also charged to do the very same thing that within the 
President's budget, they have an allocation of $5.83 million to 
carry out some of the same activities.
    However, I would argue that the Colville Tribes, as well as 
the Spokane Tribe, do the lion's share of the patrol at Lake 
Roosevelt. We are the only entity that responds to calls after 
dark. We get over 1.5 million visitors to Lake Roosevelt 
annually, and obviously their well being and their safety are 
of utmost importance to us because they are visiting our 
homelands and that is a responsibility we take very seriously.
    The increases that we have seen within the BIA law 
enforcement is welcoming. We are happy to see increases. 
However, I have difficulty seeing where a lot of that money is 
hitting the ground. I have talked to many other tribes, other 
Chairmen, and they are expressing some of the same concerns. 
With the huge increase of over $58 million over the last budget 
cycle, I thought we would have seen a larger increase. At 
Colville, unfortunately, we have only seen $22,000. On that 
list, there are about 17 other tribes who have increases that 
are listed as low crime and no staffing and need, they received 
about $20,000, and there is even one that received over 
$100,000.
    As I state, we are Colville, we usually have one or two 
officers on a land-base of 1.5 million. And as I reminded Vice 
President Biden, that our reservation is bigger than his State 
of Delaware. You know that is a large task for our law 
enforcement to take on. And with limited resources, as it 
stands, the tribe supplements that to a tune of about $1 
million a year and sometimes it is more than that based on 
need.
    And I would also like to point out that we have a lot of 
problems with smuggling on Lake Roosevelt as well. That is a 
difficulty that our natural resources officers face on a yearly 
basis, trying to get a better handle on that because of the 
ruralness of the Colville Reservation. It is a hot spot for 
planes coming in and out of British Columbia.
    And we also have marijuana groves that we have had several 
busts over the last three or four years. A lot of those have 
ties to the Mexican cartels which, again, are finding our 
reservation in a rural area an ideal place to carry out these 
activities. Again, we try to combat this with limited 
resources.
    Lastly, I would like to talk about the Indian Land 
Consolidation Program and $1.9 billion that is slated to be 
allocated through that program through the Claims Resolution 
Act. And I would like to share the sentiment of my colleague, 
Jim Steele. I found it almost ironic witnessing the field of 
questions that Senator Tester was asking relative to the 
progress that is being made and the direction it is going in, 
whether or not there is a plan in place and whether or not the 
Colville Tribes, as well as the ATNI Tribes and the NCAI Tribes 
passed resolutions as this legislation was moving through 
Congress asking for certain things to be included in the 
settlement before it was given final consideration.
    And unfortunately, many of those terms that were proposed 
on the House side by Doc Hastings, on the Senate side by 
Senator Barrasso, went largely ignored. And the tribes echoed 
those same concerns and wanted some of the same terms in there.
    So I found it ironic now that the tribes voiced that 
through resolutions to ATNI and NCAI, that certain people are 
now asking the same questions that the tribes were asking the 
whole time. And we want transparency. We want to be involved. 
We have concerns that if there is no plan in place now after 
the 10-year window elapses that the money is going to go back 
to Treasury.
    For all the problems I expressed earlier of the fee-to-
trust, we see the same problem happening now. Are there things 
that are going to be done to ensure that this money doesn't go 
back to Treasury? That it is going to be used in an effective, 
meaningful manner that the tribes hope it will be? But at the 
same time, a lot of tribes have some insight and some 
discussion on how this money is going to be expended. I think 
the tribes know best how the money should be spent to deal with 
fractionated interests on their own lands.
    But unfortunately, during this process when the tribes were 
asking questions when they were trying to push this through the 
House and Senate side, we were told that this wasn't about 
individuals. I beg to differ. I think it is apparent now and it 
was apparent the whole time that this deals with Indian tribes, 
particularly on the $1.9 billion that is going to deal with the 
fractionated lands that are on our reservations.
    I hope that now that this is even more apparent to the 
people who will be administering the Indian Lands Consolidation 
Program and that they do reach out to tribes.
    And lastly, I would like to make a comment on a statement 
that was made earlier by Mr. Joseph who said there are monthly 
calls to tribal leaders on the settlement. I am a Chairman of 
my tribe. I also serve as Chairman of the Intertribal 
Monitoring Association. I am not aware of these monthly calls. 
I haven't been asked. I haven't been notified. I haven't seen 
any e-mail or propaganda on that. So I have concerns about that 
and I would like to be included on it because it is something 
that is of utmost importance to us on Colville.
    So with that, I stand for questions and I appreciate the 
opportunity. Thank you.
    [The prepared statement of Mr. Finley follows:]

 Prepared Statement of Hon. Michael O. Finley, Chairman, Confederated 
                   Tribes of the Colville Reservation

    Good morning Chairman Akaka, Vice-Chairman Barrasso, and members of 
the Committee. On behalf of the Confederated Tribes of the Colville 
Reservation (``Colville Tribes'' or the ``Tribes''), I would like to 
thank the Committee for convening this hearing on the FY 2012 Budget 
Request for tribal programs and allowing me to testify. My name is 
Michael Finley and I am the Chairman of the Colville Tribes and am 
testifying today in that capacity. In addition, I also serve as the 
Chairman for the Intertribal Monitoring Association on Indian Trust, a 
national organization comprised of 65 federally recognized tribes from 
all regions of the country.
    Today, I am pleased to share the Colville Tribes' views on the 
President's 2012 budget request for Tribal programs. As a rural, land-
based Indian tribe, the Colville Tribes and similarly situated Indian 
tribes rely heavily on the Bureau of Indian Affairs' land and natural 
resources programs. My remarks today will focus on these and other 
programs of interest to land-based Indian tribes.

Background on the Colville Tribes
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of 12 aboriginal tribes and bands from all across eastern 
Washington State. The present-day Colville Reservation is located in 
north-central Washington State and was established by Executive Order 
in 1872. At that time, the Colville Reservation consisted of all lands 
within the United States bounded by the Columbia and Okanogan Rivers, 
roughly 3 million acres. In 1891, the North Half of the 1872 
Reservation was opened to the public domain. The North Half consists of 
approximately 1.5 million acres between the Canadian border and the 
northern boundary of the present-day Reservation. Colville tribal 
members exercise reserved hunting, fishing, and gathering rights on the 
North Half and the Colville Tribes maintains strong political and 
economic interests in this area.
    Today, the Colville Tribes has nearly 9,400 enrolled members, 
making it one of the largest Indian tribes in the Northwest. About half 
of the Tribes' members live on or near the Colville Reservation. 
Between the tribal government and the Tribes' enterprise division, the 
Colville Tribes collectively accounts for more than 1,700 jobs--making 
it one of the largest employers in north-central Washington.

Trust and Natural Resources Management Programs
    For land-based Indian tribes like the Colville Tribes that are not 
near major highways or interstates, our natural resources are our 
primary source of revenue. Our ability to generate economic development 
opportunities is closely tied to our ability to have fee-to-trust 
applications, timber sales, grazing permits, and other land 
transactions processed and approved in a cost efficient and timely 
manner. Most of these programs are funded in the Bureau of Indian 
Affairs' Natural Resources Management and Real Estate accounts.
    With the funding that Indian tribes receive for these activities, 
tribes have proven that they are superior land managers and use the 
funds far more efficiently than comparable activities on other federal 
lands. For example, it often takes the U.S. Forest Service many months 
to procure a salvage log sale after a forest fire. The Colville Tribes 
and other tribes with timber resources, however, are usually able to 
complete this process in as little as two weeks--with a per acre forest 
management budget that is a fraction of what the U.S. Forest Service 
has traditionally enjoyed.
    Similarly, the Colville Tribes' Natural Resource Officers jointly 
patrol the 161 shoreline miles of Lake Roosevelt, the reservoir of the 
Grand Coulee Dam and a National Recreation Area with more than 1.5 
million visitors annually. Although the National Parks Service also 
conducts patrols, the Colville Tribes' officers have exclusive 
responsibility for 35 percent of Lake Roosevelt and are the most 
visible presence on the Lake. The FY 2012 Budget contains a total of 
$560,000 for both Colville Tribes and the Spokane Tribe for these 
activities. In stark contrast, the President's Budget for FY 2012 for 
the National Park Service for Lake Roosevelt is $5.83 million.
    As these examples illustrate, Indian tribes have demonstrated time 
and time again that they can do more with less. It is therefore 
understandable that the Colville Tribes is disappointed that decreases 
are proposed for several of the natural resource programs in the FY 
2012 Budget. Significantly, a $7.5 million cut is proposed for 
cadastral surveys. Cadastral surveys are often required for routine on-
reservation fee-to-trust applications, and where they are not required, 
these funds pay for other associated survey requirements. It appears 
that these costs will now be passed down to tribal governments and 
individual Indians, which will further delay land into trust and 
associated economic development endeavors.
    The FY 2012 Budget also proposes the elimination of the attorney's 
fees and litigation support program (-$2.1 million). Although this 
program may seem like a small amount of money against the backdrop of 
the total Indian Affairs budget, tribes nationwide rely on it to 
protect their trust resources. The Colville Tribes is a case study in 
this regard.
    For at least 100 years, through the mid-1990's, the largest lead-
zinc-copper smelter in the world dumped hundreds of thousands of tons 
of ``slag'' directly into the Columbia River from a location 10 miles 
north of the U.S./Canadian border. These contaminants traveled 
downstream, across the international border, and settled in not only 
the Colville Tribes' on-reservation trust lands, but also federal lands 
administered by the National Park Service, the Bureau of Reclamation, 
and the U.S. Fish and Wildlife Service.
    Despite the obvious interests of the Department of the Interior and 
its federal land management agencies to ensure that these federal lands 
are safe for the public at large, only the Colville Tribes (and later, 
the State of Washington) stepped forward to file suit in order to 
compel the company to clean up the contamination it caused. The 
Department of the Interior has never been a party to the litigation 
despite the Colville Tribes' formal request that it intervene. The 
Colville Tribes' efforts to protect this critical watershed for all 
U.S. citizens would not have been possible without funding from the 
attorney's fees and litigation support program.

Law Enforcement
    The Colville Tribes and other large land-based tribes are pleased 
that funding for BIA law enforcement activities is again proposed for a 
significant increase in the President's Budget. While these increases 
are always welcome, what is needed, in the Colville Tribes' view, is 
transparency in how these increases are allocated to Indian tribes.
    As the Committee is well aware, large land-based tribes usually 
lack a sufficient number of police officers, which leads to response 
times often in excess of two hours. There are occasions when the 
Colville Tribes has only a single officer on duty for the entire 1.4 
million acre reservation. To make matters worse, the Colville Tribes 
has seen a rash of gang violence and drug smuggling activity in recent 
years, including airborne drug smuggling and trafficking activity with 
ties to Mexican cartels. Other Indian tribes have similar or even more 
harrowing stories.
    The Colville Tribes was, therefore, understandably surprised to 
learn that for FY 2010--a year that BIA law enforcement received a 
nearly $59 million increase over FY 2009 enacted levels--the Colville 
Tribes received only a $22,000 increase. We were even more surprised to 
learn that the same year, 17 Indian tribes that the BIA identified as 
having ``Low Crime'' and ``No Staffing Need'' received increases of at 
least $20,000, with one receiving a six figure increase. A rational 
explanation of why the BIA distributed these increases in this manner 
may well exist, but neither the Colville Tribes nor any other Indian 
tribes that we have communicated with have heard one. The Colville 
Tribes hopes the Committee will direct the BIA to ensure that these and 
other law enforcement funding methodologies are transparent, adequately 
explained, and made readily available to Indian tribes and to the 
Committee.

Indian Land Consolidation
    Indian country is understandably very interested in the $1.9 
billion that was appropriated last year for the Indian Land 
Consolidation program (ILCP) as part of the Claims Resolution Act of 
2010. This may be the largest sum of money ever appropriated for a 
single Indian program in the Department of the Interior. Tribal 
interest in the ILCP, however, is tempered by an overriding concern 
that the Department may not be equipped to spend all of this money 
within the 10-year period after which the funds revert back to the U.S. 
Treasury. It is also tempered by a frustrating lack of information from 
the Department on the planning processes and timeframes for tribal 
consultation on the program.
    The sooner information is disseminated the sooner tribes can 
provide meaningful input and assist in getting the program ready. 
Tribes are weary that the costs of appraisals, surveys, environmental 
site assessments, and other requirements that the Department may deem 
necessary prior to acquiring fractionated interests will result in a 
slow moving logjam that consumes the bulk of the ILCP funds. Final 
approval of the Cobell settlement could be years away if appeals are 
lodged, so it makes little sense to delay tackling these important 
issues now.
    The Colville Tribes appreciates the Committee convening this 
hearing and is grateful of its consideration of these and other issues. 
We very much look forward to working with the Committee on these issues 
in the 112th Congress.

    The Chairman. Thank you very much, Mr. Finley.
    Let me call on Chairman Blackhawk for your statement.

STATEMENT OF HON. JOHN BLACKHAWK, CHAIRMAN, WINNEBAGO TRIBE OF 
                            NEBRASKA

    Mr. Blackhawk. Thank you, Mr. Chairman.
    To begin with, I want to thank you for this opportunity to 
speak before the Committee, but I must confess that it was a 
little bit short notice and today I kind of looking at my 
colleagues, I feel a little bit better, but I was called last 
Thursday to testify and my initial reaction was no.
    When there is a budget battle that claims we are going to 
eliminate $100 billion from the budget and you don't touch 
defense spending, that sounds like a train wreck that is 
waiting to happen.
    So initially, my response was no. But thankfully to your 
staff, they insisted that I come here. And so today, I decided 
to come because as we were talking about the budget, one of the 
things that occurred to me is that I have testified a number of 
years. I have been serving my tribe for about 26 years, and you 
come in and you have the fancy charts and you do this and that, 
and you show. And they are all very, very good, but as I talked 
with your staffer, I said, you know, it is going to take me all 
of five seconds to testify because I am the same as everyone 
else. We need more money.
    But the more I thought about it, and to the credit of your 
staffer, I thought I might add just a little bit more to that 
because what we talked about is, and it has been mentioned here 
today so it is very, very appropriate in terms of how this 
discussion goes on. Because we all know the budgets are fair 
and they are a little bit better, and we think we win when we 
lose less.
    I remember the Reagan years when we lost 10 percent across 
the board. I remember that decimated our CHRs. For Winnebago, 
it meant losing about seven and retaining about seven. So 
actually it was half.
    But in thinking of all of that, I thought there are some 
ways that we need to really collectively plan because when we 
lose dollars in terms of our own budgets and the things that we 
are doing for economic development, we have to come back to the 
drawing board.
    There are some things that I think warrant some 
consideration. First of all, the idea of prevention. I had this 
discussion with Dr. Grimm many years ago when he first became 
the IHS Director. And I shared with him that I wanted to see us 
move into the area of prevention a little bit more because 
actually there are no real dollars in prevention, but that is 
something that has to happen because when you look at the 
prevention efforts and what they can save, it does make some 
sense to do those kind of things. So that is one.
    The other is that the Law and Order Act which is something 
that is very, very positive. But within all of that, the 
discussion that I have not participated in and have not heard 
us talk any more about is this thing that we went through line 
authority some years ago. It was called line authority because 
this was a new structure that was supposed to make law 
enforcement better.
    And quite honestly, Mr. Chairman, it has not. It has caused 
a bottleneck. It has caused our area, District One, serves 
seven States. And just within our own Aberdeen area, there are 
over 150,000 people that you are talking about. There are 
millions and millions of miles to cover, which can't be done. 
So I think the idea of line authority needs to be revisited.
    And then I guess lastly, in terms of what Mr. Allen was 
saying, we do need more of the agencies to participate. Right 
now, we have a battle of sorts with the Corps of Engineers. We 
litigated against the Corps in the early 1970s and gained some 
line back and lost some. But one of the things was there was a 
section of land that the Corps was supposed to return to the 
tribe, but they have not. Their idea is, and I can't figure 
this out because I have seen at least three different Colonels 
with the Corps of Engineers. Initially, they said sure, and the 
25 years that comes up in March, actually the end of this 
month.
    So we are scrambling to try and do something about that 
because the Corps has changed their mind and I am not sure why. 
So I think they have to be within the context of this 
consultation with us as tribes. And that is something we are 
sharing with the Administration.
    And lastly, the testimony that was prepared for me, very 
quickly I want to commend my staff and Winnebago for doing 
that. I am very, very proud of the fact that one of the people 
that participated is the CEO of our Economic Development 
Branch, and that is something we launched in 1994. We are 
looking at approximately $200 million in revenue since that 
creation. So I am very, very proud of that, as well as my 
Health Director who has very recently received her doctorate 
and is native and we are very, very proud of that fact.
    So with that, Mr. Chairman, thank you very much for your 
time.
    [The prepared statement of Mr. Blackhawk follows:]

Prepared Statement of Hon. John Blackhawk, Chairman, Winnebago Tribe of 
                                Nebraska

    Over the years, numerous accounts of testimony have been provided 
by Tribal leaders and organizations representing Native people. Many 
have provided statistics on well documented health disparities for 
American Indians. Government officials have also recognized these 
inequalities in services. We all know, without a doubt, many of these 
disparities are a direct result of inadequate funding: inadequate 
funding that continues to be jeopardized as a result of discretionary 
funds status. The inequitable allocation of funds is not based on 
population or need. Formulas for appropriations should be based on the 
trends of population growth and medical inflation. The negative effects 
of the insufficient funds appropriated continue to disrupt the well-
being of Native American Nations.
    Although American Indians are reported to have a shorter lifespan, 
the populations on reservations continue to rise not only due to the 
increase in number of births, but also on the number of tribal members 
returning to reservations to receive appropriate healthcare that is 
unfortunately operating with limited resources and high demand. The 
domino effect from this quagmire perpetuates a cycle of inadequacy. The 
process begins with poor funding which leads to poor delivery, 
frustrated employees and therefore, horrendous outcomes that can and 
have resulted in death. Patients experience the turmoil of prolonged 
hiring processes, executive vacancies and territorial behaviors of 
programs. This unfortunate cyclical pattern of inadequacy is 
perpetuated by the failure to increase funding or modify the formula in 
which appropriations are determined.
    This severe lack of funding also strengthens the resistance to 
collaboration with Tribal Programs and the deleterious effects of such 
institutionalized oppression are witnessed and experienced through poor 
patient care. Contract Health Services is an excellent example of how 
this takes place as a territorial nature ensues when the inability to 
provide expected services is questioned.
    In addition to the limited funding for CHS, systemic issues erode 
the possibility of efficacious referrals. And although the Federal 
Government recognizes the importance of prevention services we have not 
experienced adequately funded efforts. Major efforts for prevention 
programs are neglected and providers are spending enormous amounts of 
time on acute issues. Contract Health Services does not fund prevention 
services such as colonoscopies, mammograms or routine screenings. By 
covering prevention services, we can decrease the cost of long term 
chronic care by addressing these concerns before they become chronic.
    The stagnant nature of funding has resulted in losing quality 
employees and providers. Retention and recruitment of quality care 
professionals also continues to be an unmet need for our facilities. We 
are often limited to physician assistants who must refer out for 
appropriate medical attention. Having adequate staff would reduce the 
number of referrals and increase the appropriateness of service. 
Staffing should therefore be based on population and need.
    There are two more important points I want to make while I have the 
opportunity. Our goal is to figure out short term ways to fund Indian 
Health Care, but I must remind you that the best way to address the 
long term problem is for tribes to break out of their grinding poverty 
and develop their emerging economies. Instead of asking for a bigger 
budget, our goal would be for our people to have employer provider 
health care insurance. If given the choice, I would rather complain 
about the cost of health insurance than declining federal support of 
IHS.
    The Federal Government has created a system that makes it 
incredibly difficult to develop our reservations economically. The 
legal system is universally feared by tribes and going to the U.S. 
Supreme Court is the last thing any tribal leader wants to do. The 
states are growing increasingly aggressive in fighting tribal growth of 
all kinds, especially land acquisition and taxation issues.
    Within this context, tribes are trying to develop their economies. 
The four largest industries in Indian Country are Natural Resources, 
Gaming, Government Contracting and Native American Tobacco. There are 
several systemic problems to be dealt with, but Federal Government is 
doing everything it can to help us develop our natural resources. 
Gaming has provided a much needed capital injection into tribes, but it 
has reached a plateau and the Indian Gaming Industry declined last year 
for the first time in its 25 year history.
    The third largest industry is Government Contracting, primarily 
driven by the SBA 8a business development program. The Federal 
Government placed a restriction on tribes last year, called Section 
811, which requires burdensome and highly unlikely approval 
requirements on tribal contracts over $20 million. Twenty million 
dollars sounds like a lot, but it isn't when you consider most large 
contracts are for multiple years. Section 811 was developed behind 
closed doors and passed without any input from tribes. This law hasn't 
even been fully implemented yet and is already having a stifling effect 
on tribes.
    Senator McCaskill has also introduced a bill to eliminate the 
tribal specific provisions for Alaska Native Corporations and has 
publically stated she will do the same to tribes as soon as she can 
find evidence she knows must exist proving tribal malfeasance. When 
questioned by an Alaska newspaper about this hurting individual tribal 
people, she callously referred the tribal people to the federal and 
state welfare system--something we are already familiar with.
    The SBA 8a program has been one of the most successful economic 
development programs in tribal history. The 8a program is a prime 
contracting program, not a sub-contracting program. It has allowed 
tribes to transform themselves over the last 30 years from being the 
low cost, low value added sub-contractor with low paid employees 
toiling with mundane tasks, to become prime contractors that can 
compete with larger companies on a head to head basis.
    The program's very success is why it is under criticism. New 
regulations just published should go a long way towards addressing the 
criticisms raised, ironically, by our competitors. I ask that you 
support the SBA 8a program's tribal provisions because it has been one 
of the primary ways for tribes to break out of the negative economic 
cycle and begin providing for ourselves.
    The Native Tobacco industry is the fourth largest industry in 
Indian Country and the recent passage of the much despised Pact Act has 
put that entire industry in jeopardy. The PACT Act was supposed to stop 
the internet tobacco mail order business and it did just that. I 
realize it is hard to defend the mail order tobacco business, but I do 
strongly believe that tribes should have the right to manufacture, 
distribute and sell their own tobacco products on their own land 
without state interference.
    The 12 year old Master Settlement Agreement (MSA) between the 
States and Big Tobacco has dramatically complicated the regulatory and 
tax issues between the states and tribes. Big Tobacco has threatened 
the states with the withholding of settlement payments if the states do 
not aggressively enforce the terms of the settlement on the tribes. The 
tribes were not part of the lawsuit, nor do we receive any settlement 
funds. There is no legal or logical reason we should be subject to its 
terms.
    The Pact Act ended the mail order business, but the on-going 
threats from Big Tobacco has now resulted in the reservation business 
is coming under assault too. The states also want tribes to collect 
state taxes and MSA fees for non-Indians sales on our reservations. We 
refuse to use race to determine price in our own stores in our 
territory to create a price advantage for a non-Indian company. Such a 
system is completely out of date and offensive to us as sovereign 
governmental entities.
    The states working with Big Tobacco have already introduced ``model 
legislation'' in multiple states to use the information required to be 
reported to states by the Pact Act to figure out ways to isolate and 
control tribes. The Pact Act should now rightly be called the MSA 
Enforcement Act. The Pact Act purported to have protections for tribes, 
such as protecting our sovereign immunity. But one state introduced 
legislation which stated that if a tribe exercised its legal right by 
claiming sovereign immunity to an MSA enforcement action, then that 
tribe would be put on a ``list'' and it would be illegal for anyone to 
sell them any tobacco products or tobacco manufacturing products. These 
``economic sanction'' bills and the arrogance of their introduction is 
astounding.
    These are direct attempts to circumvent the protections provided to 
tribes under the Pact Act and the Department of Justice and Bureau of 
Alcohol, Tobacco and Firearms are complicit in this problem by 
interpreting the Pact Act, under heaving lobbying from states, to help 
them achieve their goals. We have asked the Department of Justice and 
the ATF for another consultation to explain what is happening to 
tribes, but we have yet to get a response and would appreciate your 
help in being heard.
    Thank you for your time.

    The Chairman. Thank you very much, Chairman Blackhawk, for 
your testimony.
    Now, I will call on Governor Dasheno for your statement. 
Please proceed.

  STATEMENT OF HON. WALTER DASHENO, GOVERNOR, PUEBLO OF SANTA 
                             CLARA

    Mr. Dasheno. Aloha, Chairman Akaka.
    The Chairman. Aloha.
    Mr. Dasheno. I extend greeting from the tribal elders to 
the youngest. It is so important for us to be here in the great 
hall to present to you our concerns that we have. And 
obviously, every tribal leader that has come before us has 
eloquently so stated. And so I am here to follow in their 
footsteps, and certainly your position as the Chairman is going 
to provide us the direction where we go in regards to Indian 
issues.
    My name is Governor Walter Dasheno from the Pueblo of Santa 
Clara, and certainly what every individual has said prior to 
myself is important. I certainly recognize all of the things 
that are being done. And I am here to give you my story as a 
tribe and the experience in the self-governance that mirrors 
what many of our self-governance tribes overall have done and 
been so successful with.
    Self-governance works, Mr. Chairman, and I hope that self-
governance is just a step in the direction that other tribes 
will go. My question is, what comes after self-governance? I 
think it is going to be important for us as tribes to begin to 
formulate where we go after this next step that we take.
    Self-governance has provided accountability. It has 
strengthened tribal planning and management capacities. It 
invests in our local resources. It strengthens our reservation 
economies. It allows for flexibility in a firm sovereignty.
    I think the last key message is it affirms sovereignty. 
This is the partnership that we have with the United States 
Federal Government and it should always be upheld as far as I 
see and as far as our tribal leaders have provided for times 
past.
    Santa Clara Pueblo is happy to see that the President's 
budget proposal continues investment in self-governance. In the 
IHS budget, the President has proposed an increase of $363,000 
to the $6,323,000 funds from the fiscal year 2011 Continuing 
Resolution levels, which covers the administrative costs. And 
of course, far more than that is actually awarded to tribes 
under HHS self-governance.
    For the self-governance line in the BIA budget, the 
President has proposed an increase of $7.3 million for a total 
of $155 million from the fiscal year 2010-2011 Continuing 
Resolution level, and this is an increase of approximately 5 
percent.
    Overall, the President obligates $425 million to some 225 
federally recognized tribes self-governance compacts, and this 
is just the beginning, Mr Chairman. I see that more tribes are 
going to pursue the issue of self-governance. It allows for 
flexibility and it allows for the true government-to-government 
relationship that we seek and so direly need.
    Now, we are starting to increase the self-governance 
program. In reality, overall funding for self-governance tribes 
does not keep pace with non-self-governance tribes. It has been 
the experience of the self-governance tribes that when Indian 
Affairs has received funding increases, self-governance tribes 
do not receive their relative fair share. I would urge this 
Committee to examine closely this issue.
    I would also urge this Committee to support the 
reintroduction and passage of the proposed Self-Governance 
Amendment legislation, H.R. 4347 in the last Congress. H.R. 
4347 contains several proposed amendments to Title IV of the 
Indian Self-Determination and Education Act that advance 
important purposes. Most significantly, they create a 
consistency between Title IV self-governance in DOI and Title V 
self-governance in the Department of Health and Human Services.
    I understand that in the last Congress, there was some 
concern that there were no offsets for the estimated $5 million 
cost of implementing the legislation. In fact, we believe that 
the $5 million estimate is essentially a fiction, and to the 
extent that there is any significant cost, some officials have 
said it could be absorbed by the BIA's own budget for this 
year's funds, so no offset is necessary.
    Our request from Santa Clara Pueblo is illustrative of 
national concerns. Santa Clara Pueblo is submitting grant 
applications to fund various feasibility studies for a range of 
energy projects. Both the Department of Energy Office of Tribal 
Affairs and the BIA Office of Indian Energy and Economic 
Development have been very helpful and their programs should 
receive more funding.
    Santa Clara desperately needs a new and expanded health 
clinic. Santa Clara does not believe that the Indian Health 
Service has the funds to pay the costs for construction of a 
new facility and so it plans to finance its own facility if 
necessary.
    Still, Congress should support funding for more hospital 
construction and also continue to support and provide favorable 
grants and loan guarantees for tribes that seek to construct 
their own facilities.
    Investments in irrigation infrastructure. Rio Grande Pueblo 
Infrastructure Improvement Act funding. This Act authorizes the 
funding of projects to correct deficiencies identified by a 
secretarial study. The implementation of this Act will 
favorably affect the Pueblo's traditional lifestyle and 
culture, which for hundreds of years has been based on 
agriculture and irrigating lands. So far, almost no money has 
been spent implementing this Act.
    In the late 2009, the Santa Clara Pueblo completed 
construction of a 10,800 regional adult daycare center that 
will be able to serve a growing population of tribal seniors 
from the Eight Northern Pueblos. Although the Center has been 
completed, the adult daycare program has not been completed or 
implemented due to severe funding restraints. Congress needs to 
expend funding for programs that serve Indian elders.
    And the Santa Clara Pueblo wastewater system is in an 
advanced state of decay and threatens community health and the 
quality of water of the Rio Grande. The system was largely 
constructed in the 1960s and 1970s and has served out its 
useful life. The need to upgrade wastewater and water 
facilities is common throughout Indian Country.
    Thank you for this opportunity to present the budget 
perspective of Santa Clara Pueblo.
    And Mr. Chairman, I also want to say that the Southwest 
Regional Office, Mr. Walker, Mr. Riley and in particular Ms. 
Janet Blacker have been very, very helpful to our Pueblo. We 
just need to partner more strongly with the bureau agency staff 
and the bureau regional offices. They have the resources. They 
have the personnel. We need to put them out into the field. 
They need to work with tribal governments and they need to be 
more accountable and more effective.
    And so with that, I want to extend my appreciation to you, 
to your staff. God bless you, God bless America, and we look 
forward to working with each and every one of you, particularly 
in Indian Country. We have suffered long enough. We need your 
assistance. We need your blessing and we need your money.
    Thank you. Mahalo.
    [The prepared statement of Mr. Dasheno follows:]

 Prepared Statement of Hon. Walter Dasheno, Governor, Pueblo of Santa 
                                 Clara

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you, Governor, for your statement. And 
I think that is an excellent statement to close the hearing 
today.
    I want to thank all of the witnesses for testifying here 
today. And I want to thank Secretary Echo Hawk for staying 
throughout the entire hearing. We really appreciate that.
    We will submit written questions to witnesses and we will 
keep the record open for one week for any Member to submit 
statements or questions as well.
    And I want to say mahalo nui loa for your time and your 
contributions to the hearing today.
    I look forward to continuing to work with you and let's 
keep in close contact.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Charles W. Murphy, Chairman, Standing Rock 
                              Sioux Tribe

    On behalf of the Standing Rock Sioux Tribe, I am pleased to submit 
testimony concerning the President's FY 2012 budget for the Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS). I want to express 
my appreciation to the Senate Committee on Indian Affairs for its 
strong support of Indian tribes. I would like to focus my remarks on 
education, public safety, health care, and infrastructure.
    The Standing Rock Sioux Tribe is situated in North and South 
Dakota. The Reservation comprises 2.3 million acres, including 1.4 
million acres of trust land owned by the Tribe or Tribal members. About 
10,000 Tribal members and non-members reside on the Reservation in 
eight communities and in smaller towns. The Tribe's primary industry is 
cattle ranching and farming. We are remote, rural Indian reservation.
    As Congress addresses the needs of the Indian country in light of 
the Budget deficit, I would urge you to consider three fundamental 
questions. First, what is the impact of funding Indian programs on 
jobs? While Indian tribes like Standing Rock are often among the 
largest employers in their areas, unemployment in Indian country 
remains at levels that are unimaginable elsewhere. Federal investments 
in education, public safety, and infrastructure in Indian country are 
crucial to providing jobs in these chronically high unemployment areas.
    Second, what kind of country are we? The federal government has a 
special trust obligation to tribes, arising from the Constitution, 
treaties and other documents. Much has been promised to Indian tribes 
in return for the loss of our lands. Are we a country that keeps its 
promises? Maintaining needed funding for programs aiding Indian country 
is one way to demonstrate the integrity of the United States in 
honoring its commitments.
    Third, is it fair to limit the debate on the Budget to only 
discretionary spending? Certainly not. The only way to fairly address 
the Budget deficit is to put everything on the table. Social security, 
Medicare, tax reform and other key issues need to be included. It is 
simply not right to undermine necessary programs for Indian country, 
while the major reasons for the Budget deficit remain unaddressed. With 
these questions in mind, we turn to Standing Rock's specific 
recommendations.
    The Sioux Nation ceded millions of acres of land to the United 
States. As recently as the 1950's, the United States Army Corps of 
Engineers flooded more than 56,000 acres of prime Tribal farmland on 
the Standing Rock Sioux Reservation to create the Oahe Dam to increase 
navigation along the lower Missouri River and to provide cheap hydro-
electric power to the north-central United States. Millions of 
Americans benefit from the Oahe Dam, but it brought great hardship to 
our Tribe. These hardships continue to this day.
    The Oahe Dam devastated our Tribe, displacing more than 25 percent 
of our reservation's population. We lost our best farmland and are 
still working to reclaim irrigable lands on our reservation. The 
creation of Lake Oahe further isolated our reservation. It established 
over a 100 mile transportation barrier from Bismarck, North Dakota to 
Mobridge, South Dakota, where the first bridge crossing over the 
Missouri River south of Bismarck is located. Our rural location and 
lack of infrastructure (roads, safe drinking water, sewers, and 
electricity) contribute to the economic challenges our Tribe faces. But 
working in partnership with the United States and our neighbors, we can 
turn challenges into opportunities for economic growth and job creation 
on our Reservation.
    The Tribe is working steadily to expand opportunities for economic 
development to provide jobs for our members and improve the standard of 
living on our Reservation. We operate the Standing Rock Farms, a Parts-
on-Demand operation, two modest Tribal casinos, and a sand and gravel 
operation which helps us supplement services and programs for our more 
than 14,000 enrolled members. Despite the measures we are taking at the 
local level to improve living conditions on our reservation, we have 
persistent unemployment above 50 percent, and a high dropout rate among 
our high school students. Over 40 percent of Indian families on our 
reservation live in poverty. Yet, the Administration has proposed 
cutting discretionary spending for the BIA by $118.9 million or 4.5 
percent over the FY 2010 enacted level.

Education
    Native Americans are poorly represented in colleges across the 
country. Investment in Indian education--at every level--is critical to 
the future success of our children.
    Scholarships and Adult Education (+$32.0 mil.)--I recommend that 
Congress double the funding for the BIA Scholarship and Adult Education 
Program by $32 million. Our Tribe has provided $3 million in Tribal 
funds over three years to support a scholarship program to provide over 
300 students with grants of between $3,000-$3,500/semester which allow 
them to pursue degrees from accredited colleges, universities and 
vocational schools. BIA financed scholarships total about $500,000 per 
year. This meets 25 percent of our need. More of our members are 
seeking advanced degrees and job training. Scholarships help offset 
costs of attending accredited colleges. The Adult Education component 
enables adults to obtain their GED or the required skills needed to 
transition to a community college or job placement. Job training and 
improved literacy are key skills our members require to secure 
competitive jobs.
    Johnson O'Malley Act (+$11.0 mil.)--I urge Congress to Increase 
funding for the Johnson O'Malley Act program to $24.3 million to 
address the unique educational and cultural needs of Native children 
attending public schools (an increase of $11 million above the 
Administration's request). JOM was funded at $24 million in 1994. JOM 
is a critical program that fully involves local communities and Native 
parents in the education of our children.

Public Safety Needs
    Living conditions on Standing Rock are difficult. According to most 
recent statistics of the Department of Housing and Urban Development 
(HUD), in 2010, over 1,163 reservation households on Standing Rock had 
family incomes between 30 percent-80 percent of median family income in 
the area. On the North Dakota portion of our reservation (Sioux County, 
ND), the median family income is only $27,473. This figure is 57 
percent of North Dakota's overall median family income of $47,898. On 
the South Dakota portion of our reservation (Corson County, SD), the 
median family income is only $27,591. This figure is about 59 percent 
of the South Dakota average median family income of $46,244. On 
Standing Rock, 485 households, or 42 percent of our least well off 
households, earn 30 percent of median family income.
    We have far too few BIA public safety officers patrolling our eight 
districts and small communities on our 2.3 million acre reservation. 
Police officers in Indian country are our primary first responders. BIA 
equipment and technology are outdated, including police cruisers, 
radios and communications infrastructure. We do not have access to 
computerized law enforcement statistics.
    In the spring and summer of 2008, following the deaths of several 
Tribal members, at our request and with the help of our Congressional 
delegation, the BIA began ``Operation Dakota Peacekeeper'' as part of 
the Interior Department's Safe Indian Communities initiative to reduce 
crime, target illegal drug activities and provide much needed 
investigative support to prosecute domestic violence and crimes against 
children. A total of 56 BIA officers were detailed from their 
reservations to Standing Rock over a seven month period.
    Operation Dakota Peacekeeper more than quadrupled our normal BIA 
Police force. Before the surge, we had only ten BIA public safety 
officer positions filled. This was enough for only two officers per 24-
hour shift to patrol a 2.3 million acre reservation encompassing four 
towns, eight separate communities, 2,500 miles of roads, and a 
population of 10,000 residents. The public safety surge was an 
overwhelming success. Tribal elders felt safe in their homes and began 
to leave their doors unlocked and windows open at night. It also 
highlighted the glaring need for greater numbers of patrol and other 
public safety personnel on our reservation. Congress enacted and 
President Obama signed the Tribal Law and Order Act (TLOA) in law which 
creates a number of important mandates to strengthen tribal courts and 
justice systems.
    Criminal Investigations and Police Services (+25 mil.)--In order 
for the Administration to fully implement the TLOA and to address the 
shortfall of more than 1,800 police officers in Indian country cited in 
a 2006 GAP report, we encourage the Congress to increase funding for 
Criminal Investigations and Police Services to $215 million, or $25 
million above the 2.2 percent increase ($4.2 mil.) proposed by the 
Administration above the FY 2010 enacted level of $185 million.
    Detention/Corrects (+15 mil.)--Until the BIA addresses the 
shortages of corrections officers cited in the 2006 GAP report and to 
implement requirements of the TLOA, we recommend that Congress increase 
funding for BIA-funded detention/corrections by $15 million above the 
Administration's proposed budget of $85 million.
    Tribal Courts ($+20 mil.)--We urge Congress to increase the modest 
funding of $25 million appropriated for the Tribal Courts Program. Our 
Tribe cannot effectively carry out criminal proceedings, let alone 
civil cases, with our small BIA allocation, even when heavily 
subsidized by the Tribe. Our Tribal courts are crowded, cramped and 
outdated and limit our ability to administer a comprehensive criminal 
justice system on the Reservation.
    Facilities, Operation and Maintenance (+$5.0 mil.)--We urge 
Congress to add an additional $5 million to the BIA-funded Public 
Safety and Justice's Facility, Operation and Maintenance budget of 
$13.7 million. Adequate maintenance and repair is essential to extend 
the useful life of facility infrastructure and make needed repairs 
until Indian tribes can invest in adequate infrastructure for Tribal 
Courts, Police Stations, and detention facilities.

Health Care
    The majority of our Tribal elders continue to suffer from diabetes, 
heart disease and hypertension. Accidents are the leading cause of 
death among our members. On the North Dakota portion of our 
reservation, 6.6 percent of our tribal members are age 65 and older. In 
North Dakota generally, 14.7 percent are age 65 and older (more than 
double our figure). On the South Dakota portion of our reservation, 9.6 
percent of our tribal members are age 65 and older. In South Dakota 
generally, this figure is 14.5 percent, more than fifty percent higher 
than on our reservation. More is needed to serve our elders properly. 
Our Tribal members deserve the opportunity to live full and productive 
lives and compete successfully in today's global economy.
    We are pleased to see the Administration acknowledge the large 
health disparity that exists between Native Americans and the rest of 
the population. The FY 2012 funding of $4.166 billion for IHS Services 
is recognition that Indian country still has a long way to go to 
improve the health of our members. Far too many of our members live 
with debilitating diseases and illnesses that shorten their lives. We 
urge the Committee to protect the Administration's proposed increase of 
$508 million above the FY 2010 enacted level for IHS Services, which 
includes an increase of $89 million for Contract Health Services (CHS) 
and $63 million for Contract Support Costs. On Standing Rock, many 
members go without needed health care services each year because of 
inadequate CHS dollars. The proposed increases will better enable 
tribes and the IHS to implement provisions in the permanent extension 
of the Indian Health Care Improvement Act (IHCIA) that are designed to 
redress health disparities in Indian country.

Taking Care of Existing Infrastructure Needs
    (+$75 mil.)--I strongly oppose the $1.0 million cut the 
Administration proposes for the BIA Road Maintenance Program and flat 
line funding this program has received over the last 20 years. The 
decision to underfund this program will cost taxpayers millions of 
dollars as tribes and the BIA must reconstruct roads far sooner due to 
poor maintenance. With inadequate maintenance, roads which should last 
20 years, last only 7-10 years. Limited to $25 million, Tribes 
operating the Road Maintenance Program cannot hope to tackle the large 
backlog of deferred road maintenance needs that make our roads and 
bridges unsafe and impede travel on our reservations. Our Tribe 
invested $26.5 million, which we borrowed from Wells Fargo Bank, to 
reconstruct nearly 20 miles of community streets. We installed 
sidewalks, curbs, gutters and street lights throughout the reservation 
for the first time. We are struggling to maintain our investment 
because we expend most of our Road Maintenance funds during the winter 
months to pay for snow removal (labor, fuel, salt, sand, truck repairs 
and truck rentals, etc.) and to respond to other road emergencies such 
as floods.
    Lack of adequate funding for Road Maintenance and new construction 
(IRR Program) undermine our ability to achieve every major program 
priority we have (public safety, health care, education, housing, and 
economic development). All of these programs depend on and require a 
modern infrastructure. Road maintenance is a public safety program. 
Poor road conditions contribute to the unacceptably high levels of 
serious injury and death on Indian Reservation Roads each year. We urge 
Congress to appropriate $100 million annually for the Road Maintenance 
Program so that we can better maintain our BIA and Tribal road systems 
as we reconstruct them.

Economic Development
    We urge the Congress to appropriate $5 million for the BIA's Office 
of Indian Energy and Economic Development to help tribes build their 
reservation economies. Increased appropriations will allow this program 
to serve more reservations. Thank you for providing our Tribe the 
opportunity to present testimony.
                                 ______
                                 
  Prepared Statement of Hon. Cheryl A. Causley, Chairwoman, National 
                    American Indian Housing Council

Introduction
    Good morning Chairman Akaka, Vice Chairman Barrasso, and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Cheryl Causley and I am the Chairwoman of the National American 
Indian Housing Council (NAIHC), the only national tribal non-profit 
organization dedicated to advancing housing, physical infrastructure, 
and economic development in tribal communities in the United States. I 
am also the Executive Director of the Bay Mills Housing Authority and 
an enrolled member of the Bay Mills Indian Community. I want to thank 
the Committee for the opportunity to submit testimony regarding the 
President's FY 2012 Budget Request.
    At the outset, NAIHC would like to thank Housing and Urban 
Development Secretary Donovan for his commitment to Indian Country, not 
only in the form of support for reasonable funding levels for tribal 
programs, but in the form of consistent outreach to tribal communities 
and his stated commitment to reaching out to other federal agencies to 
enhance communications at the federal level so that tribes may best use 
and leverage their limited federal funds. We have enjoyed building our 
relationship with Secretary Donovan's office during the past year and a 
half and look forward to continued collaboration.

Background on the National American Indian Housing Council (NAIHC)
    The NAIHC was founded in 1974 and has, for 37 years, served its 
members by providing valuable training and technical assistance (T&TA) 
to all tribes and tribal housing entities; providing information to 
Congress regarding the issues and challenges that tribes face in terms 
of housing, infrastructure, and community and economic development; and 
working with key federal agencies in an attempt to address such issues 
and meet such challenges. The membership of NAIHC is expansive, 
comprised of approximately 271 members representing 463 \1\ tribes and 
tribal housing organizations. The primary goal of NAIHC is to support 
tribal housing entities in their efforts to provide safe, quality, 
affordable, and culturally relevant housing to native people.
---------------------------------------------------------------------------
    \1\ There are approximately 565 federally-recognized Indian tribes 
and Alaska Native villages in the United States, all of whom are 
eligible for membership in NAIHC. Other NAIHC members include state-
recognized tribes that were deemed eligible for housing assistance 
under the 1937 Act and grandfathered in to the Native American Housing 
Assistance and Self-Determination Act.
---------------------------------------------------------------------------
Brief Summary of the Problems Regarding Housing in Indian Country
    While the country has been experiencing an economic downturn in 
general, this trend is greatly magnified in tribal communities. The 
national unemployment rate has risen and has hopefully passed its peak 
at an alarming rate of nearly 10 percent; \2\ however, that rate does 
not compare to the unemployment rates in Indian Country, which average 
49 percent. \3\ The highest unemployment rates are on the Plains 
reservations, where the average rate is 77 percent. \4\ Because of the 
remote locations of many reservations, there is a lack of basic 
infrastructure and economic development opportunities are difficult to 
identify and pursue. As a result, the poverty rate in Indian Country is 
exceedingly high at 25.3 percent, nearly three times the national 
average. \5\ There is no question that tribal members are among the 
nation's most vulnerable citizens.
---------------------------------------------------------------------------
    \2\ See http://www.bls.gov/news.release/empsit.nr0.htm.
    \3\ Bureau of Indian Affairs Labor Force Report (2005).
    \4\ Many of these reservations are in the State of South Dakota, 
which has one of the lowest unemployment rates in the nation. However, 
on some SD reservations, the unemployment rate exceeds 80 percent.
    \5\ U.S. Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2008. See http://www.census.gov.
---------------------------------------------------------------------------
    The above-stated employment and economic development challenges 
exacerbate the deplorable housing conditions in Indian Country. Our 
first Americans face some of the most distressing housing and living 
conditions in the country, and the availability of affordable, 
adequate, safe housing in Indian Country falls far below that of the 
general U.S. population. Consider the following:

  <bullet> According to the 2000 U.S. Census, nearly 12 percent of 
        Native American households lack plumbing compared to 1.2 
        percent of the general U.S. population;

  <bullet> According to 2002 statistics, 90,000 Indian families were 
        homeless or under-housed;

  <bullet> On tribal lands, 28 percent of Indian households were found 
        to be over-crowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent;

  <bullet> When structures that lack heating and electrical equipment 
        are included, roughly 40 percent of reservation housing is 
        considered inadequate, compared to 5.9 percent of national 
        households;

  <bullet> Seventy percent of the existing housing stock in Indian 
        Country is in need of upgrades and repairs, many of them 
        extensive; and

  <bullet> Less than half of all reservation homes are connected to a 
        sewer system.

    There is already a consensus among many members of Congress, HUD, 
tribal leaders, and tribal organizations that there is a severe housing 
shortage in tribal communities; that many homes are, as a result, 
overcrowded; that many of the existing homes are in need of repairs, 
some of them substantial; that many homes lack basic amenities that 
many of us take for granted, such as full kitchens and plumbing; and 
that at least 200,000 new housing units are needed in Indian Country.
    These issues are further complicated by Indian land title status. 
Most Indian lands are held in trust or restricted-fee status; 
therefore, private financial institutions will not recognize tribal 
homes as collateral to make improvements or for individuals to finance 
new homes. Private investment in the real estate market in Indian 
Country is nearly non-existent. Tribes are almost wholly dependent on 
the Federal Government for financial assistance to meet their growing 
housing needs, and the provision of such assistance is consistent with 
the federal government's centuries-old, Constitutionally-based trust 
responsibility to American Indian tribes and Alaska Native villages.

The Native American Housing Assistance and Self-Determination Act
    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) to provide federal statutory authority 
to address the above-mentioned housing disparities in Indian Country. 
NAHASDA is the cornerstone for providing housing assistance to low-
income Native American families on Indian reservations, in Alaska 
Native villages, and on the native Hawaiian Home Lands. The Indian 
Housing Block Grant (IHBG) is the funding component of NAHASDA. Since 
NAHASDA was first funded in 1998, it has been the single largest source 
of funding for tribal housing. IHBG funds support new housing 
development, acquisition, rehabilitation, and other housing services 
that are critical for tribal communities, as well as essential planning 
and operating expenses for tribal housing programs.

American Recovery and Reinvestment Act (ARRA) and FY 2010 Indian 
        Housing Funds
    NAIHC would like to thank Congress for its increased investment in 
Indian housing in FY 2010. ARRA provided over $500 million for the IHBG 
program. This additional investment in Indian Country supported 
hundreds of jobs, allowed some tribes to start on new construction 
projects, and assisted other tribes in completing essential 
infrastructure for housing projects that they could not have otherwise 
afforded with their IHBG allocations. Tribes have complied with the 
mandate to obligate and expend funds in an expedient manner, thus 
helping stimulate tribal and the national economies. In addition to 
ARRA funding, Congress appropriated $700 million for the IHBG in FY 
2010, the first significant increase in funding since the inception of 
NAHASDA. This positive step reversed a decade of stagnate funding 
levels that neither kept pace with inflation nor addressed the acute 
housing needs in tribal communities, and NAIHC is thankful for this 
powerful step in the right direction.

The President's FY 2012 Budget Request for the Indian Housing Block 
        Grant
    NAIHC supports the President's FY 2012 Budget Request, which 
maintains the FY 2010 level of funding of $700 million for the IHBG 
program. While NAIHC believes that the IHBG needs to be funded, at a 
minimum, at $875 million just to keep pace with increasing costs for 
housing development, energy efficiency initiatives, and other 
inflationary factors, we recognize that the current budget situation 
requires some difficult choices on the part of the Administration and 
the Congress. We ask that Congress support funding for the IHBG program 
in an amount not less than the President's request of $700 million.
    NAIHC also supports the inclusion of $65 million in the President's 
FY 2012 Budget Request for the Indian Community Development Block Grant 
(ICDBG) program. This program provides funds for essential 
infrastructure for tribal communities. As the ICDBG program is one of 
the few sources of funds that tribes can access for the purpose of 
infrastructure development, NAIHC consistently requests $100 million 
per fiscal year be made available for this program.

Training and Technical Assistance (T&TA)
    The President's FY 2012 Budget Request does not include the much-
needed, exceptional T&TA that has been provided by NAIHC since NAHASDA 
was implemented. The provision of T&TA is critical for tribes to build 
their capacity to effectively plan, implement, and manage tribal 
housing programs. Eliminating funding for T&TA would be disastrous for 
tribal housing authorities and would be a huge step in the wrong 
direction. Tribes need more assistance in building capacity, not less. 
Since NAIHC's funding for T&TA was restored in 2008, requests for T&TA 
have steadily grown. The funding that NAIHC is currently receiving is 
insufficient to meet the steady, growing demand for T&TA. Therefore, we 
are forced to make difficult decisions regarding how to provide the 
most effective T&TA to our membership. The NAIHC membership has 
repeatedly taken the position that a portion of the Indian Housing 
Block Grant funding should be made available to NAIHC for T&TA, 
therefore, NAIHC and its member tribes recommend that $4.8 million be 
provided to a national organization for T&TA.

Conclusion
    NAHASDA was enacted to provide tribal communities with new and 
creative tools necessary to develop culturally relevant, safe, decent, 
and affordable housing. It has been remarkably successful in view of 
the limited funding over the past 13 years. It is our aspiration that 
tribes will be able to build on those successes in the future, which 
requires sufficient funding. NAIHC is thankful for proposed level 
funding for the IHBG and ICDBG programs, given the current budget 
climate, and we are hopeful that Congress will protect the IHBG and the 
ICDBG, programs that help provide the most fundamental of services-
housing--to some of the nation's most vulnerable citizens.
    Thank you, Chairman Akaka and Vice Chairman Barrasso, and the 
members of the Senate Committee on Indian Affairs, for giving us the 
opportunity to express our views about the President's FY 2012 Budget 
Request. Your continued support of tribal communities is acknowledged 
and truly appreciated. The NAIHC is eager to work with you and your 
professional staff on any and all issues pertaining to tribal housing 
programs and living conditions for America's indigenous people.
                                 ______
                                 
  Prepared Statement of D'Shane Barnett, Executive Director, National 
                     Council of Urban Indian Health

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of Russell Gschwind, Director, National Ironworkers 
                 Training Program for American Indians

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Prepared Statement of the Alaska Federation of Natives

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
